<html>
<title> - ASSESSING THE EFFECTIVENESS OF THE NATIONAL ORGANIC PROGRAM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


      ASSESSING THE EFFECTIVENESS OF THE NATIONAL ORGANIC PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 17, 2019
                               __________

                           Serial No. 116-17
                           
                           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  

          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-195 PDF                 WASHINGTON : 2019                            
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
JEFFERSON VAN DREW, New Jersey       DOUG LaMALFA, California
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               TED S. YOHO, Florida
SALUD O. CARBAJAL, California        MIKE BOST, Illinois
JIMMY PANETTA, California            JAMES COMER, Kentucky
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
AL LAWSON, Jr., Florida

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Cox, Hon. TJ, a Representative in Congress from California; on 
  behalf of Robert Hawk, President and Chief Executive Officer, 
  Munger Companies, submitted letter.............................    35
Dunn, Hon. Neal P., a Representative in Congress from Florida, 
  opening statement..............................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    15
Pingree, Hon. Chellie, a Representative in Congress from Maine, 
  submitted fact sheet...........................................    37
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................     1
    Prepared statement...........................................     2
Schrier, Hon. Kim, a Representative in Congress from Washington, 
  submitted article..............................................    35

                                Witness

Ibach, Hon. Greg, Under Secretary, Marketing and Regulatory 
  Programs, U.S. Department of Agriculture, Washington, D.C.; 
  accompanied by Jennifer Tucker, Ph.D., Deputy Administrator, 
  National Organic Program, Agricultural Marketing Service, USDA.     5
    Prepared statement...........................................     6
    Submitted questions..........................................    38

 
      ASSESSING THE EFFECTIVENESS OF THE NATIONAL ORGANIC PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 1300, Longworth House Office Building, Hon. Stacey E. 
Plaskett [Chair of the Subcommittee] presiding.
    Members present: Representatives Plaskett, Delgado, Cox, 
Harder, Brindisi, Schrier, Pingree, Carbajal, Panetta, Lawson, 
Peterson (ex officio), Dunn, Thompson, Hartzler, LaMalfa, 
Davis, Bost, and Baird.
    Staff present: Kellie Adesina, Malikha Daniels, Brandon 
Honeycutt, Bart Fischer, Patricia Straughn, Jeremy Witte, Dana 
Sandman, and Jennifer Yezak.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair. Good morning. This hearing of the Subcommittee 
on Biotechnology, Horticulture, and Research entitled, 
Assessing the Effectiveness of the National Organic Program, 
will come to order.
    Thank you for joining us today as we examine the 
effectiveness of the USDA's National Organic Program. As our 
nation's food manufacturers, a growing number of producers, and 
millions of consumers know, the USDA organic seal is a well-
recognized and sought-after symbol in the grocery store. 
Ensuring the integrity of this seal is critically important to 
not only protect consumer confidence, but also protect the 
premium that organic producers continue to enjoy.
    This industry has experienced a tremendous amount of growth 
over the last 2 decades, with annual sales now totaling over 
$50 billion. It is no longer a niche market in coastal cities, 
but a core component of grocery lists and food budgets in towns 
large and small.
    My constituents, as well as those in other rural districts, 
are seeking out organic products, and producers in the Virgin 
Islands are interested in organic farming to diversify their 
operations and increase profits.
    Just as the sector has undergone tremendous change, so has 
its farmers. Organic farmers and ranchers can now be found in 
rural and urban communities across the country. They vary in 
size and geographic location, but their mission remains the 
same: to produce high-quality food that meets consumer 
expectations through compliance with National Organic Program 
standards.
    Today, we are going to look at that program, the growth 
within the sector, and needs for oversight and enforcement that 
may exist. Like other sectors that have seen explosive growth, 
the organic industry's expansion has not been without 
challenges. As the Subcommittee with jurisdiction over 
organics, we have a responsibility to oversee this rapidly 
evolving segment without stifling the innovation that makes it 
so unique.
    We also must balance the demands for organic products, 
while protecting the integrity of the organic seal. That goal 
can be achieved through thorough oversight and strong 
enforcement of the organic standards. Leading that oversight 
are today's witnesses.
    Under Secretary Greg Ibach and Dr. Jennifer Tucker, thank 
you both for being here. USDA serves an essential role in the 
regulation and enforcement of organic standards, so your work 
is vital to this sector.
    The power of the organic seal is in its integrity, in the 
trust that consumers place in it. It is our job here in 
Washington, both here and at the USDA, to ensure we are 
safeguarding the integrity of the National Organic Program. 
Just in recent months, we have seen this integrity challenged 
with reports of fraudulent organic products being imported 
domestically.
    With these reports came consumer confusion, and a risk to 
the reputation of our domestic organic supply chains. Such 
incidents only highlighted the need for expanded authorities 
for enforcement, increased resources, more staffing, and 
stronger data collection: actions needed to be taken to protect 
the program's integrity and restore consumer trust.
    I am proud that the 2018 Farm Bill provided NOP with new 
authorities to address the most pressing concerns of the 
organic industry. Our legislation invested in NOP, vastly 
expanded the program's authority for data collection, and 
focused on interagency collaboration to best leverage expertise 
across USDA and the Federal Government.
    With these new authorities and investments, NOP should now 
have the tools necessary to better protect the program's 
integrity. In a time when farm incomes continue to lag behind 
the rest of the economy, emerging domestic markets are a much-
needed source of demand for what farmers and ranchers produce.
    The organic sector offers an opportunity for our farmers 
and ranchers to invest in their operations, seek a premium on 
their products, and meet a growing consumer demand. I look 
forward to hearing today's testimony on where the USDA is in 
terms of implementing organic programs authorized in the 2018 
Farm Bill, and to a healthy dialogue about the performance of 
the National Organic Program.
    [The prepared statement of Ms. Plaskett follows:]

 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                          from Virgin Islands
    Good morning, and thank you for joining us today as we examine the 
effectiveness of the USDA's National Organic Program (NOP).
    As our nation's food manufacturers, a growing number of producers, 
and millions of consumers know, the USDA Organic Seal is a well-
recognized and sought-after symbol in the grocery aisle. Ensuring the 
integrity of this seal is critically important to not only protect 
consumer confidence, but to also protect the premium that organic 
producers continue to enjoy.
    This industry has experienced a tremendous amount of growth over 
the last 2 decades, with annual sales now totaling over $50 billion. It 
is no longer a niche market in coastal cities, but a core component of 
grocery lists and food budgets in towns large and small. My 
constituents, as well as those in other rural districts, are seeking 
out organic products, and producers on the Virgin Islands are 
interested in organic farming to diversify their operations and 
increase profits.
    Just as the sector has undergone tremendous change, so has its 
farmers. Organic farmers and ranchers can now be found in rural and 
urban communities across the country. They vary in size and geographic 
location, but their mission remains the same: to produce high-quality 
food that meets consumer expectations through compliance with the 
National Organic Program's standards. Today, we're going to look at 
that program, the growth within this sector, and any needs for 
oversight and enforcement that may exist.
    Like other sectors that have seen explosive growth, the organic 
industry's expansion has not been without challenges. As the 
Subcommittee with jurisdiction over organics, we have a responsibility 
to oversee this rapidly-evolving segment without stifling the 
innovation that makes it so unique. We also must balance the demand for 
organic products while protecting the integrity of organic seal. That 
goal can be achieved through thorough oversight and strong enforcement 
of the organic standards.
    Leading that oversight are today's witnesses--Under Secretary Greg 
Ibach and Dr. Jennifer Tucker. Thank you both for being here. USDA 
serves an essential role in the regulation and enforcement of organic 
standards, so your work is vital to the sector.
    The power of the organic seal is in its integrity--in the trust 
that consumers place in it. It's our job here in Washington, both here 
and at USDA, to ensure we're safeguarding the integrity of the National 
Organic Program.
    Just in recent months, we've seen this integrity challenged, with 
reports of fraudulent organic products being imported domestically. 
With these reports came consumer confusion, and a risk to the 
reputations of domestic organic supply-chains.
    Such incidents only highlighted the need for expanded authorities 
for enforcement, increased resources, more staffing, and stronger data 
collection. Action needed to be taken to protect the program's 
integrity and restore consumer trust.
    I am proud that the 2018 Farm Bill provided NOP with new 
authorities to address the most pressing concerns of the organic 
industry. Our legislation invested in the NOP, vastly expanded the 
program's authority to crack down on fraudulent organic imports, 
provided resources for data collection, and focused on interagency 
collaboration to best leverage expertise across USDA and the Federal 
Government. With these new authorities and investments, NOP should now 
have the tools necessary to better protect the program's integrity.
    In a time when farm incomes continue to lag behind the rest of the 
economy, emerging domestic markets are a much-needed source of demand 
for what farmers and ranchers produce. The organic sector offers an 
opportunity for our farmers and ranchers to invest in their operations, 
seek a premium on their products, and meet a growing consumer demand.
    I look forward to hearing today's testimony on where the USDA is in 
terms of implementing organic programs authorized in the 2018 Farm 
Bill, and to a healthy dialogue about the performance of the National 
Organic Program.
    Now I'd like to recognize the distinguished Ranking Member, Mr. 
Dunn of Florida, for any opening remarks he would like to make.

    The Chair. I would like to recognize the distinguished 
Ranking Member, Mr. Dunn of Florida, for any opening remarks he 
may like to make.

  OPENING STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Dunn. Well, thank you very much, Madam Chair. And thank 
you for holding today's hearing to review the National Organic 
Program.
    Consumer demand for agriculture goods produced under the 
organic seal continues to show double-digit growth, providing 
market incentives for U.S. farmers across a large range of 
products. According to USDA, organic sales account for over 
four percent of U.S. food sales and U.S. farms and ranches, in 
2016, sold $7.6 billion worth of organic commodities.
    However, these successes have not come without challenges. 
Increases in domestic production have not been able to keep up 
with the increase in demand, which has created import 
pressures. And as we know, over the last several years, we have 
continued to hear reports of fraudulent imports of organic 
products coming to the U.S. undercutting our domestic producers 
and creating some distrust.
    And the 2018 Farm Bill tackled the problem by providing the 
NOP with additional authorities to secure the industry from 
fraud, including robust import certification and access to 
cross-border documentation systems administered by other 
Federal agencies and oversight of certifying agents operating 
in foreign countries. I know USDA has made good progress in 
implementing these provisions. I look forward to hearing about 
that progress from Under Secretary Ibach today.
    Finally, I would like to highlight a few other challenges 
that, in my view, threaten the legitimacy of the program, and 
the organic industry as a whole. I think pushing overly 
prescriptive regulations and disparaging non-organic production 
practices, and inhibiting other organic producers' ability to 
use innovative practices does not move the industry forward.
    Selling products under the organic seal comes with a 
responsibility, and it is my hope that the National Organic 
Program, in addition to other USDA marketing programs, can 
continue to serve as an effective value-added tool benefiting 
the agriculture community as a whole.
    And I thank you, Secretary Ibach, for being here today. And 
I look forward to hearing your testimony.
    And, with that, Madam Chair, I yield back. Thank you.
    The Chair. Thank you.
    I would like to welcome USDA Under Secretary for Marketing 
and Regulatory Programs, Greg Ibach. In this role, Under 
Secretary Ibach has oversight over the Agricultural Marketing 
Service and the Animal and Plant Health Inspection Service, 
APHIS. AMS includes the National Organic Program, which we will 
discuss today. Thank you for being here.
    Under Secretary Ibach is accompanied by Dr. Jennifer 
Tucker, Deputy Administrator for the National Organic Program 
at AMS. Dr. Tucker, thank you for helping in responding to our 
questions today. I understand that the Under Secretary, will be 
the one who will be given 5 minutes to make a statement. I 
would also--and when the 1 minute is left--you have 5 minutes--
the light will turn yellow as a signal for you to start 
wrapping up your testimony, which I am sure you know very well.
    I also want to state, the chair would request that other 
Members submit opening statements for the record if they so 
wish, so the witness may begin with his testimony, to ensure 
that there is ample time for questions.
    Under Secretary, please begin when you are ready.

        STATEMENT OF HON. GREG IBACH, UNDER SECRETARY, 
            MARKETING AND REGULATORY PROGRAMS, U.S. 
         DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.; 
         ACCOMPANIED BY JENNIFER TUCKER, Ph.D., DEPUTY 
           ADMINISTRATOR, NATIONAL ORGANIC PROGRAM, 
              AGRICULTURAL MARKETING SERVICE, USDA

    Mr. Ibach. Okay. Thank you very much, Chair Plaskett, 
Ranking Member Dunn, and other Members of the Subcommittee. I 
appreciate the opportunity to appear before you today. I look 
forward to our discussion of organic agriculture and the 
critical role the USDA's National Organic Program plays in 
ensuring the integrity of the organic label.
    I am Greg Ibach, Under Secretary for USDA's Marketing and 
Regulatory Program's mission area. With me today, as has been 
introduced, is Dr. Jennifer Tucker, the Deputy Administrator 
who oversees the National Organic Program, or NOP.
    Today, I would like to provide an update on both our 
foreign and domestic enforcement activities. I will also update 
you on the Department's implementation of the organic 
provisions of the 2018 Farm Bill. Protecting the integrity of 
the organic label is more important than ever as the industry 
continues to grow.
    Sales reached a record $52.5 billion in 2018, up over six 
percent from the previous year. This includes 1,000 new farms 
that were certified in the U.S. last year. This growth has been 
supported by USDA's development of clear and enforceable 
organic standards. These standards describe how farmers grow 
crops and raise livestock, and which herbicides, pesticides, 
and fertilizers they may use throughout the process.
    Congress established the NOP as a public-private 
partnership, so certifiers are key to enforcement. The NOP 
ensures each certifier has the experience, training, and tools 
they need to be effective. However, when compliance is not 
achieved, certifiers are suspended. For example, in May, NOP 
suspended a certifier's office in Turkey because they could not 
demonstrate the ability to effectively oversee organic 
operations in the Black Sea region.
    This heightened oversight and enforcement, since 2016, has 
resulted in at least 180 operations in that region losing their 
organic certification. By weeding out these bad actors, USDA 
helps create opportunities for expanded organic production here 
in the U.S.
    Another success story involves our collaboration with 
APHIS. In March, APHIS notified NOP staff that a shipment of 
organic bell peppers to Philadelphia had been fumigated, a 
prohibited practice under the NOP regulations. They provided 
evidence used to identify the importer and prevent the peppers 
from being marketed as organic in the U.S.
    In addition to enhanced oversight of imports, we are also 
overseeing and protecting the domestic market. The NOP resolves 
just under 500 inquiries and investigations every year. Eighty-
five percent of those involve U.S.-based businesses.
    The NOP has increased its coordination with the USDA Office 
of Inspector General for criminal violations, and a recent 
investigation resulted in significant penalties for domestic 
fraud. This case involved $140 million in sales of grain, which 
was fraudulently marketed as organic.
    Finally, I want to thank you for the enhanced enforcement 
provisions provided in the 2018 Farm Bill, and I will provide 
the following highlights on our implementation progress to 
date. Provisions requiring import certificates and closing 
certification loopholes will be included in the strengthening 
organic enforcement rulemaking that AMS was working on prior to 
passage of the 2018 Farm Bill. AMS expects to publish this 
proposed rule this fall.
    In May, AMS, Customs and Border Protection, and APHIS 
formed an interagency working group for coordination, 
reporting, and information sharing related to organic imports 
and integrity. The first working group meeting was on June 27. 
AMS recently entered into an interagency agreement with CBP to 
automate NOP's import certificate to reduce paper processing 
and improve traceability and accountability for organic 
imports.
    With these new farm bill tools and a renewed emphasis on 
enforcement, USDA is committed to supporting organic farmers 
and ranchers by developing clear standards and creating a level 
playing field to support farmers and businesses producing 
organic food. A level playing field across countries also 
expands opportunities to open new markets for U.S. organic 
businesses.
    Again, thank you for the opportunity to appear before you 
today. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Ibach follows:]

 Prepared Statement of Hon. Greg Ibach, Under Secretary, Marketing and 
 Regulatory Programs, U.S. Department of Agriculture, Washington, D.C.
    Chair Plaskett, Ranking Member Dunn, and other Members of the 
Subcommittee and full Committee, thank you for the opportunity to 
appear before you today to discuss organic agriculture and the role of 
USDA's National Organic Program (NOP) in ensuring the integrity of the 
organic label. I am Greg Ibach, Under Secretary for USDA's Marketing 
and Regulatory Programs. With me today is Dr. Jennifer Tucker, the 
Deputy Administrator who oversees the NOP. The NOP facilitates market 
access for organic agricultural products and conducts compliance and 
enforcement activities that protect the integrity of the organic label.
    Today I would like to provide you the latest information on our 
enforcement activities, specifically as they relate to organic imports, 
as well as update you on the status of the Agricultural Marketing 
Service's (AMS) implementation of the organic provisions in the 2018 
Farm Bill.
How the NOP Works
    This May, the Organic Trade Association released the results of 
their 2019 Organic Industry Survey which showed 2018 organic sales 
reaching $52.5 billion, up 6.3 percent from the previous year. USDA-
approved certifiers issued just over 1,000 new certifications for 
organic operations in the United States and 713 certifications for 
international operations in 2018. USDA develops clear and enforceable 
organic certification standards that describe how farmers grow crops 
and raise livestock and which substances they may use throughout the 
product's lifecycle, from farm to market.
    Agricultural products that are sold, labeled, or represented as 
organic must be produced and processed in accordance with the NOP 
standards. All farms and processors with more than $5,000 in annual 
organic sales must be certified organic. The certification process 
verifies that a farm or handling facility complies with organic 
regulations and allows products to be represented as organic.
    Seventy-eight certifying agents are currently USDA-accredited and 
authorized to certify to the USDA organic standards for more than 
43,000 operations around the world. Each of these certifying agents is 
authorized to issue an organic certificate to operations that comply 
with the USDA organic regulations.
    NOP accredits state Departments of Agriculture and private 
certifying agents around the world who ensure producers and handlers 
are in compliance with the National Organic Standards.
Oversight and Enforcement
    Consumers choose to purchase organic products expecting that they 
are grown, processed, and handled according to the USDA organic 
regulations. A high-quality regulatory program benefits organic farmers 
and processors by taking action against those who violate the law.
    Every year, five percent of farms and businesses are selected for 
an unannounced inspection, and five percent have their products tested 
for residues of prohibited substances--such as synthetic pesticides, 
antibiotics, or arsenic. Certifiers follow-up on any noncompliances 
with operations to either bring them into compliance or to initiate 
adverse actions, such as proposed suspensions.
    In addition to unannounced inspections, the public--from consumers 
to producers to other organic market participants--submits complaints 
of suspected violations of the USDA organic regulations to the USDA. 
These complaints allege that farms and businesses are using the USDA 
organic seal incorrectly, selling products under the label without 
certification, or using prohibited substances. Certifying agents and 
the USDA collaborate to address each complaint, taking enforcement 
action when appropriate. Punishments may include financial penalties up 
to $11,000 per violation and/or suspension or revocation of an 
operation's organic certificate.
Risk-Based Complaint and Appeals Management
    Risk analysis makes it possible for NOP staff to focus resources 
where they have the greatest impact. Between October 2018 and March 
2019, NOP received about 260 complaints and inquiries.

  <bullet> Simple inquiries are now handled by intake staff, providing 
        customers with answers faster and saving analyst time for more 
        complex investigations. NOP resolved 113 inquiries using this 
        approach between October 2018 and March 2019.

  <bullet> Complaints about uncertified businesses selling products as 
        organic are handled by a team trained to reduce case processing 
        times and to compel compliance faster. These cases continue to 
        account for more than fifty percent of complaints received by 
        NOP. Many of these cases result in farms and businesses 
        successfully seeking organic certification--they were not aware 
        that certification was required, so they seek it in response to 
        our contact with them. Others come into compliance by no longer 
        falsely selling their products as organic.

  <bullet> Complex cases are assigned to experienced NOP investigators. 
        This specialization allows the team to initiate investigations 
        more quickly than in the past. NOP has also increased its work 
        with the USDA Office of Inspector General (OIG), referring 
        cases that include potential criminal activity for 
        investigation by other Federal law enforcement partners. While 
        some cases are dismissed due to insufficient evidence, others 
        result in warning letters, cease and desist notices, civil 
        penalties, or suspensions of existing certifications. Last 
        year, approximately half our cases resulted in no findings, 
        because there was insufficient evidence, or no violation was 
        found. The other half led to some time of enforcement action, 
        leading either to compliance or the businesses exiting the 
        organic market.

    NOP continues to meet its target of resolving 90 percent of appeals 
within 180 days of receipt. Between October 2018 and March 2019, NOP 
closed 22 appeal cases with an average processing time of 99 days. By 
focusing resources on the most complicated cases with the highest risk 
to the market, NOP closed 175 complaint investigations and inquiries 
between October 2018 and March 2019. In addition, NOP launched the 
COMPLIANCE Database in March 2019. This new tool allows the team to 
better track case progress and more quickly identify patterns and 
relationships across complaints.
Certifier Oversight
    Congress established NOP as a public-private partnership. The 78 
federally-accredited certifiers include private companies, nonprofits, 
and state Departments of Agriculture, all of which have a critical role 
in organic oversight and enforcement. In total, certifiers suspended 
326 operations for noncompliance with organic standards. This number 
has stayed consistent over time and reaffirms that most organic 
operations are complying with the rules or come into compliance quickly 
when problems are found.
    The NOP accreditation team ensures certifier staff have the 
experience, training and tools they need to be effective. NOP staff 
conducted 14 audits of certifiers, including four satellite offices, in 
the past 6 months. The findings continue to demonstrate 94 percent of 
accreditation compliance criteria being met across certifiers last 
year.
    In cases where a certifier fails to meet accreditation compliance 
criteria, NOP issues a ``notice of noncompliance,'' which the certifier 
must address. When noncompliances are not adequately addressed, NOP may 
propose the suspension of a certifier's accreditation. In these cases, 
NOP may choose to enter into settlement agreements to quickly bring the 
certifier into compliance. In other cases, the adverse action process 
continues, and the certifier's accreditation may be suspended. To 
comply with due process rights, enforcement actions may not be made 
public until due process is completed.
    When compliance is not achieved, certifiers are suspended. In 
September 2018, a certification company based in Bolivia, accepted a 
suspension of its organic accreditation under a Consent Order with an 
Administrative Law Judge. The suspension was due to the fact that the 
entity was unable to demonstrate an ability to comply with the USDA 
organic regulations. In May 2019, NOP suspended a certifying 
organization in Turkey, because they did not demonstrate the ability to 
effectively ensure compliance and oversee organic operations in the 
Black Sea region. Following a suspension, organic companies that want 
to import into the U.S. must surrender their certifications or reapply 
for certification with new certifiers.
Import Oversight
    The size and complexity of organic trade has grown over time, and 
many U.S. businesses rely on imports to create the organic products 
that consumers want. As the organic market grows, many growers, 
processors, and handlers are working within multi-business supply 
chains, often across borders. Organic handlers play a vital role in 
ensuring the integrity of organic products from farm to market.
    The value of U.S. organic imports continued to increase in 2018, 
reaching $2.2 billion, a nine percent increase from 2017 (Source: USDA 
Foreign Agricultural Service). Given this growth, import oversight 
continues to be an area of focus for NOP, with five key initiatives 
that directly support enforcement.
(1) Farm-Level Yield Analysis
    NOP is investing heavily to improve oversight of the complex supply 
chains stretching from the Black Sea region to the United States. NOP 
is also focusing on farm-level activities in high volume regions with 
multiple risk factors. To support these investigations, NOP conducted a 
review of all certified organic grain and oilseed producers in three 
Black Sea region countries using farm-level records, region-level data 
and international weather models. The analysis revealed a concerning 
pattern of organic farms reporting yields that far exceed regional 
averages. This analysis provided targeted information about specific 
farms and certifiers that is directly supporting active enforcement 
actions. Since the NOP began its investigative work on this region in 
2016, more than 180 operations have surrendered their certification.
    In the fall of 2018, NOP trained certifiers to use these new 
analytical tools for researching regional data on yields, equipping 
participants to evaluate farm-level records against a range of open-
source data as a part of organic certification. This training is also 
available in the Organic Integrity Learning Center. In addition to 
enforcement actions, NOP continues to develop training for certifiers 
to make this kind of analysis part of regular producer oversight.
(2) Supply Chain Research
    To support supply chain investigations, NOP has also completed a 
project to illuminate the business relationships between high-impact 
farms, consolidators, handlers and exporters in the Black Sea region. 
This has involved the investigation of more than 450 shipping records 
and a comprehensive review of the shipment handling process for organic 
shipments of corn and soybeans entering the United States from the 
region since 2016. This initiative directly supports the development of 
risk-based oversight models and helps us effectively target our 
resources. We will now deploy this approach to investigate different 
specialty commodities in other regions.
(3) Ship-Specific Surveillance
    Over the last year several organic industry organizations have 
requested NOP investigate specific shipments from the Black Sea region 
for fraud. NOP has used information both provided by importers and 
accessed through Customs and Border Protection's Systems to engage in 
ship-specific surveillance projects each time there has been credible 
information and enough detail to identify the entities involved. This 
has resulted in numerous vessel reviews and collaboration with U.S. 
Customs and Border Protection (CBP) colleagues for additional support, 
where appropriate. All these shipments have been traceable back to 
certified organic farms and handlers.
    These ship-specific research activities are important for market 
surveillance and highlight the need for farm-level yield analyses. 
Although they have not revealed specific fraudulent activity on their 
own, in some cases, we found that the certifier involved had not 
performed adequate oversight of farms or supply chains. As a result, 
NOP has increased the focus on certifier competency to improve 
oversight systems at all levels of the public-private partnership 
designed by Congress.
    Working collaboratively, actions and information sharing across 
Customs and Border Protection, the Agricultural Marketing Service, and 
the Animal and Plant Health Inspection Service have heightened 
oversight and enforcement actions in the Black Sea region have impacted 
the marketplace. At least 180 operations (60 percent) in the Black Sea 
region have lost their organic certification. The remaining certified 
operations are undergoing increased scrutiny. In 2016, imports from the 
Black Sea region represented 49 percent of the dollar value of key 
commodities; in 2018, imports from the region had dropped to 21 percent 
of that total dollar value. NOP staff are watching for risk factors, 
such as spikes in exports from other regions, that could trigger 
increased scrutiny.
(4) Country-Commodity Studies
    Because of the structure of organic certification and oversight, we 
often are investigating specific certifiers, operations, or supply 
chains. For effective risk-based surveillance, it is also important to 
study country and commodity combinations, such as a specialty crop 
coming from a specific country where organic imports have suddenly 
jumped. To support this layer of investigation, NOP has initiated a 
study with an international accreditation nonprofit to conduct two 
country-commodity studies. The goal of this study is to develop 
standard approaches for examining risks, or emerging risks, at the 
commodity level across an entire country. For example, certain factors 
may be more important than others in signaling there is an increased 
risk for fraud with respect to a particular organic commodity or in a 
region. Identifying the most important and common factors will drive 
future risk-based oversight approaches.
(5) Fumigation Investigations
    NOP continues to collaborate with APHIS to investigate the possible 
fumigation of products labeled as organic. As an example, in March 
2019, the APHIS team at Port of Philadelphia notified NOP staff that a 
shipment of about 350 boxes of bell peppers labeled as organic had been 
fumigated. They provided label photographs and supply chain documents, 
including invoices. Label photographs are critical evidence but are not 
included in the text-only automated fumigation reports currently 
provided by the APHIS database. NOP used the evidence and available 
trade data to identify the importer who promptly replaced the 
individual stickers on each pepper and papered over the word 
``organic'' on all bulk containers. In addition to providing evidence 
of the relabeling, the importer voluntarily shared that a similar 
shipment was on its way to Miami and would also be relabeled to remove 
organic claims. NOP is working with APHIS to expand this type of 
information sharing to other ports.
Domestic Oversight
    We have made significant progress in protecting the integrity of 
organic imports. We are also overseeing and protecting the market here 
at home. The NOP resolves just under 500 inquiries and investigations 
every year. Eighty-five percent of these complaints relate to U.S.-
based businesses. The NOP has also increased its coordination with the 
USDA OIG for criminal violations. This increases the penalties against 
the most serious violators who threaten to defraud legitimate organic 
businesspeople.
    Recently, an OIG-NOP investigation delivered significant penalties 
for domestic fraud through the U.S. Attorney's office. Five individuals 
pled guilty to conspiring to sell grain which was fraudulently marketed 
as organic in a scheme totaling $140 million in sales. USDA is serious 
about enforcing a fair market for organic farms and businesses.
    In the U.S. organic dairy sector, in 2018, USDA initiated a Dairy 
Compliance Project to better assess industry compliance with the USDA 
organic regulations, particularly with respect to the pasture standard. 
This initiative began with face-to-face training on pasture compliance 
for certifiers in January of 2018. This was followed by unannounced, 
on-the-ground visits by Federal auditors to assess both certifier and 
operation compliance. The visits were conducted at dairies across the 
United States.
    The visits confirmed that all the dairies visited were grazing 
their animals on pasture. Several correctable issues were identified, 
requiring action from operations. This work also resulted in targeted 
audits of certifiers based on their oversight of specific livestock 
operations. We will also be publishing training materials this summer 
to ensure that certifiers and operations have the same information 
needed to ensure compliance. Based on the 2018 results, we are 
expanding the Dairy Compliance Project in 2019 and visits are currently 
underway.
2018 Farm Bill
    Congress provided us with additional tools for enforcement in the 
2018 Farm Bill, which we continue to make progress toward fully 
implementing. Here are a few highlights of our implementation progress 
to date:

  <bullet> Provisions requiring the Secretary to issue regulations to 
        limit the type of operations that are excluded from organic 
        certification, as well as requiring the use of import 
        certificates, will be included in the Strengthening Organic 
        Enforcement rulemaking that AMS was working on prior to passage 
        of the 2018 Farm Bill. AMS expects to publish the proposed rule 
        late this Fall.

  <bullet> In May, AMS, CBP, and APHIS formed the Organic Agricultural 
        Product Imports Interagency Working Group for coordination, 
        reporting and information sharing related to organic imports 
        and integrity. The first Working Group meeting was on June 27, 
        2019 and it will meet monthly.

  <bullet> AMS recently entered into an inter-agency agreement with CBP 
        and provided approximately $700,000 to fund the development of 
        an Organic Message Set in CBP's Automated Commercial 
        Environment. This message set will automate NOP's Import 
        Certificate to reduce paper processing and improve traceability 
        and accountability for organic imports. Government personnel 
        will be able to identify organic shipments that cannot be 
        flagged through organic-specific Harmonized Tariff Schedule 
        codes, of which there are only a few dozen. This will allow 
        personnel to respond to fraud investigation requests more 
        rapidly and perform preliminary analysis of risk with minimal 
        reporting burden for partners.
Conclusion
    Organic agriculture continues to provide economic opportunities for 
thousands of American farmers and ranchers. USDA is committed to 
supporting these farmers and ranchers by developing clear standards for 
organic operations and by promoting compliance through meaningful 
enforcement action. In doing so, USDA continues to ensure the organic 
seal maintains consumer confidence, so producers can benefit from 
growing consumer demand in both domestic and international markets.
    Thank you. I am happy to answer any questions you may have.

    The Chair. Thank you for that. Just note that the time is 
not working up here. I am sorry?
    Ms. Yezak. It is working here.
    The Chair. Okay. How am I going to know when my colleagues 
are out of time?
    Ms. Yezak. With the red light.
    The Chair. Oh, I have to look over there.
    Ms. Yezak. For now. They are working on it.
    The Chair. That means I will have to stay focused, okay. I 
can't wander off in my head. Great. Okay. We are going to take 
a second to unplug and plug back up and see if that works.
    [Recess.]
    The Chair. Okay. We will begin and I will make a point of 
checking the light. Okay.
    Under Secretary Ibach, thank you so much for being here, 
and this is a burgeoning area. People are enormously interested 
in this. Everyone wants to know what is happening in organics 
in all of our districts. I think that is part of the reason why 
we have the number of Members that are on this Subcommittee, 
particularly because of the organic component to it.
    And I am glad to hear--one of the things I wanted you all 
to talk about is, if you could help me understand--just a 
moment--you said that the--your testimony focused on 
enforcement measures used to protect against fraudulent organic 
imports. I think that is important to protect consumer 
confidence, but it underscores the idea that our domestic 
production cannot keep up with demand. What is NOP doing to 
help grow domestic production?
    Mr. Ibach. One of the most important things that we are 
doing to help spur domestic production is taking action against 
fraudulent imports. Domestic producers need to have a level 
playing field to be able to compete on, and when imports don't 
meet the same standards that are expected of our domestic 
producers, that creates that unfair playing field that they 
struggle with.
    As we have seen the reduction in the number of certified 
operations outside the United States, we have seen growth 
within the United States as there are more opportunities 
provided to fill that gap.
    The Chair. But now, if you are suspending certification, in 
some instances, of exporters, how will domestic supply chains 
be impacted by that? What percentage of that is exports that 
would cause a change to the supply chain?
    Mr. Ibach. We are seeing a good response. Most of the 
imports coming in were feedgrains that were used in animal 
agriculture, organic animal agriculture. And we are seeing more 
producers across the country, especially in the Midwest, where 
some of them operate at scale that are embracing the 
opportunity and the margins that they see in the organic 
industry.
    The Chair. Okay. I want to applaud the NOP's certification 
cost-share program for assisting producers in offsetting 
expenses related to organic certification. In my district, in 
the Virgin Islands, unfortunately, we have a low number of 
farmers that are certified as organic growers. In addition to 
the efforts under the cost-share program, what steps has the 
Department taken to increase technical assistance--outreach to 
increase organic certifications among small- or medium-sized 
farmers in areas that may not be as advanced in this?
    Mr. Ibach. The cost-share program, as you know, in the last 
Administration, was transferred from AMS to FSA, Farm Service 
Agency, and producers now go into their local Farm Service 
Agency office to apply for those cost-share dollars. And but we 
are also working to be able to have materials available on the 
website, as well as through other avenues to increase 
producers' awareness of how to go about qualifying for 
certification.
    The Chair. Is there a means for them to get physical 
assistance from a human being other than a pamphlet or website 
to support them, helping them walk through that? What would be 
the component of USDA that would assist them in doing that?
    Mr. Ibach. Are you specifically asking about the cost-share 
program?
    The Chair. No, other ways of getting technical support. Dr. 
Tucker is showing you something.
    Mr. Ibach. Yes. The certifiers is their main responsibility 
to do that, and so, by making sure our certifiers are educated 
and they have access to understanding where to approach them, 
they provide a lot of that educational opportunity.
    The Chair. And how do we expand the number of certifiers 
that are available for people to get that assistance?
    Mr. Ibach. Certifiers are a third-party system, and that is 
driven by market demand, and as we have more demand, we will 
see more certifiers.
    The Chair. Okay. And my last question is, what is the 
status of the origin of livestock rule that was previously 
proposed by your agency? When can we expect your agency to 
issue a final rule on that one?
    Mr. Ibach. We are also very interested in the origin of 
livestock rule. We have heard from a number of clients across 
the country that have their interest in that. We share the 
interest in completing the rulemaking process, and we are 
exploring the best options to get that done. We hope to have a 
rule drafted for interagency review yet this year.
    The Chair. Okay. Great. Just one last thought is that the 
individuals who become certified are driven by the third-party 
certifiers. And I am wondering if there may be ways to try and 
incentivize them to go into areas where they haven't gone 
before or in markets that they have thought about or not as 
easy.
    It is easy for a certifier to be in a place where there are 
already a bunch of certified growers, or even in urban areas. 
But to go to more remote places to expand that, I am wondering 
if there are ways that we can, both here in the House as well 
as your agency, support and create incentives for them to go in 
places where we haven't seen them before.
    Mr. Ibach. We would definitely be interested in exploring 
that discussion and seeing what we could do to help enhance the 
availability of certifiers in areas that are deficient.
    The Chair. Thank you. Thank you so much.
    Mr. Dunn, the Ranking Member.
    Mr. Dunn. Thank you, Madam Chair. Let me just say 
parenthetically, it would be pretty easy to incentivize people 
to go to the Virgin Islands for any reason.
    Thank you also for being here, Under Secretary Ibach. I 
mentioned in my opening statement, the 2018 Farm Bill did 
provide the USDA with some additional authorities to assist 
with fraudulent imports and encourage cooperation with the 
Border Patrol. What are some of the new ways you are 
cooperating with the Border Patrol, and how did we help you 
with our farm bill?
    Mr. Ibach. Yes. The farm bill very much provided some 
opportunities to increase our level of cooperation, not only 
with the Border Patrol, but we have also focused on increasing 
our cooperation within USDA. APHIS, which is the other agency 
in Marketing and Regulatory Program mission area, has access to 
a lot of data on imports coming in as they seek to ensure and 
protect U.S. agriculture from pest and disease.
    We have paired not only APHIS with CBP, and have a working 
group working together, but we also have been able to invest 
some funds with CBP to be able to enhance their database and 
their electronic ability to be able to enter our organic 
certificates into that system.
    Mr. Dunn. Excellent. I am happy to hear that.
    Many farmers are faced with growing disease and 
environmental pressures, and yet, all too often, they lack the 
organic crop protection tools to meet the needs that these 
present to them. And often, breeding disease resistant 
cultivars will help, but in recent years, diseases like downy 
mildew evolve faster than the breeders can keep up.
    However, there are new tools, such as gene editing that can 
enable plant breeders to quickly and precisely make edits to a 
plant's own genome, changes that could easily happen naturally, 
or through breeding processes, but require more time. This 
could help with disease resistance, drought tolerance, among 
other benefits.
    Do you see certain sustainability minded applications such 
as these to potentially be consistent with the organic plant 
program?
    Mr. Ibach. As the National Organic Standards Board set the 
rules originally, right now GMO or transgenics are not eligible 
to be in the organic program. But as you have mentioned, we 
have seen new technology evolve that includes gene editing that 
accomplishes things in shorter periods of time that can be done 
through a natural breeding process.
    And there is the opportunity to open the discussion to 
consider whether it is appropriate for some of these new 
technologies that include gene editing to be eligible to be 
used to enhance organic production, and to have resistant 
varieties, drought resistant, disease resistant varieties as 
well as higher yielding varieties available.
    Mr. Dunn. I appreciate your comments on that. Sometimes we 
are more afraid of science than we should be.
    In your testimony, you highlighted a recent investigation 
in which five individuals pled guilty to conspiring to sell 
grain that was fraudulently marketed as organic. What are some 
of the ways that the National Organic Program exercises its 
enforcement capabilities, domestically and internationally?
    Mr. Ibach. Internationally, one of the things that we 
utilize is data and statistics to analyze whether or not the 
imports coming in are realistic compared to the acres under 
production, and the yields that we should anticipate for those 
regions to be able to produce. And when those numbers look like 
they are not lining up, that gives us reason to pursue the 
certifiers and the farmers that are supplying those supply 
chains, and so, that is an important tool we use.
    Domestically, we have opportunities, through auditing that 
we do, to be able to look and see whether or not we see 
weaknesses that we need to follow up on as we go through that.
    Would you like to add anything to that, Dr. Tucker?
    Dr. Tucker. We use a variety of tools to enforce both 
domestically and internationally. Often, farmers that receive 
any kind of cease and desist or notice of warning very quickly 
come into compliance. We have also increased our collaboration 
with the Office of Inspector General to pursue cases where 
there is suspected criminal activity.
    Mr. Dunn. Thank you very much. My time has expired. I want 
to thank you both again for coming today, and thank you, again, 
for having this hearing, Madam Chair.
    The Chair. Thank you.
    At this time I recognize Mr. Delgado, of New York, for his 
5 minutes of questions.
    Mr. Delgado. Thank you, Madam Chair.
    And thank you, Under Secretary.
    According to the latest Census of Agriculture data, in my 
district, upstate New York, New York 19, there are nearly 5,000 
farms. Of those, 96 percent are smaller family farms, but only 
about five percent farm organically. As families in my district 
and across the country struggle during this down farm economy, 
what outreach is the USDA doing to small- and medium-scale 
producers who could benefit from organic production to increase 
margins?
    And I know you spoke earlier about the ways in which 
enforcing fraudulent imports has helped spur domestic 
production, but I am more interested in hearing about what we 
are doing within our borders to more target these areas and 
help facilitate our farmers who are struggling?
    Mr. Ibach. I think that what we do to be able to ensure 
that consumers continue to have confidence in organic 
production when they go to the grocery store is important. I 
think that there are some rules and the procedures to be able 
to be certified. The 3 year conversion period is a hurdle to 
smaller farmers as they consider whether or not to transition 
to organic production.
    I don't necessarily know that we want to change that. But I 
think that as they see market opportunities, they weigh the 
cost of conversion with the bonuses available to them, or the 
higher prices available to them, and they make individual 
decisions that we don't necessarily drive or control at USDA. 
But, as long as we have a strong program, we will provide 
opportunities for additional producers to enter the organic 
production cycle.
    Mr. Delgado. You mentioned weighing the cost of 
transitioning, and the burden that might go along with that 
process. Actually, not long ago, I was at a farm, a dairy farm 
in Hoosick Falls up in my district, the Sheffer's Grassland 
Dairy Farm.
    And the gentleman decided around 2014, right before the 
dairy market really took a hit, he had a good year that year 
and said he was going to transition to organic. And he walked 
me through the numbers and the economics around that. We are 
talking hundreds of thousands of dollars to make that 
transition.
    Has any thought been given, particularly now, post 2014, 
when the economy is even more difficult to think through how we 
can make it easier, transition wise, cost wise for our small-
family, medium-size farms to make that transition, particularly 
if they see that on the other side of that transition, there 
could be real economic benefit?
    Mr. Ibach. I think that that is part of the discussion area 
that the National Organic Standards Board considers as to what 
the rules for transition are and how any easing or changing of 
that rule affects the integrity of the overall program and the 
access to the marketplace, and whether or not there are ways to 
make that less time requirement or easier.
    And at this point in time, we haven't seen a lot of support 
to lessen those standards that would provide a--less cost 
involved. But we do see more and more producers entering into 
organics each year, six percent increase in production, 1,000 
new farms. There are opportunities for producers that do want 
to make the transition to do that.
    Mr. Delgado. Just one more follow-up. You said there is not 
a lot of support for lessening the standards for transitioning. 
Can you just unpack that a little bit for me?
    Mr. Ibach. Jennifer, would you like to be a little bit more 
specific there for me?
    Dr. Tucker. I think the organic standards need to be 
strong, which means there are a number of very specific steps 
that organic farms need to go through in order to transition. 
And there has not been interest in lessening the strictness of 
those transition standards. The U.S. has the high gold standard 
for organic standards and we want to uphold that.
    Mr. Delgado. Thank you.
    The Chair. Thank you.
    We are honored to have with us in the Subcommittee the 
Chairman of the full Committee, Mr. Collin Peterson. I will 
recognize him at this time if he has any questions, or anything 
he would like to state at this time.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you. Thank you, Madam Chair.
    I just have one question, or issue. Sorry I wasn't here 
earlier, you touched on that you are trying to crack down on 
these issues that are coming out of Turkey and Black Sea region 
and so forth, and I am glad to hear that.
    Can you tell me, how did your staff handle these complaints 
when you have a suspected violation, and how do they ensure 
that the organic standards in those countries are actually 
being upheld when you have a specific situation like this?
    Mr. Ibach. We are very much, part of our responsibility is 
to follow up on complaints or concerns that we are made aware 
of. We have auditors that go into the marketplace, whether it 
be a domestic or a foreign marketplace, to take a look at the 
certifiers, and, if we need to, into some of the farms that 
have been certified to be able to ensure that the rules of the 
National Organic Program are being followed. And so, it is 
through that process of audit and investigation that we are 
able to identify avenues and specific certifiers that aren't 
following our rules.
    Mr. Peterson. Well, for example, some of the dairies in my 
area are concerned that this feed coming in from Turkey is not 
organic. Do you actually go to a farm? Do you actually go to 
the producers and check it out, or do you just take somebody's 
word for it, how does that work?
    Mr. Ibach. Our first avenue is through the certifiers to 
make sure that we audit them to know that their procedures that 
they are using to certify individual farmers are in compliance 
with our standards. But we also, if needed, will go to 
individual farms to do audits to verify what the certifiers are 
doing.
    And as a result, we have seen 180 different farms that have 
dropped their certification in the Baltic region, or in the 
Black Sea region. And we have seen imports drop from that 
region from where they were about \1/2\ of all the imports of 
those commodities coming in a few years ago to where they are 
now only about 21 percent of the imports coming in. We have 
seen our enforcement result in a change in where commodities 
are coming from.
    Mr. Peterson. I take it that you have enough folks to be 
able to do what you need to do at this point. Do you think you 
are going have enough people, going forward, as we have an 
increased demand for organic, and an increase in the industry, 
are you going to have enough people to keep on top of this to 
make sure that this has integrity?
    Mr. Ibach. Yes, that is a great question. And so, the 
monies that were provided to USDA organic program through the 
last farm bill gave us a lot of opportunities to try to gain 
some efficiencies. The cooperative relationship we have entered 
into with CBP is going to allow us to move away from a paper 
system to an electronic system.
    And when we do that, we will be able to shift resources 
around. And at this time, we feel like we would have sufficient 
resources to be able to meet the current demands as well as 
what we expect demand for our resources and certifiers and 
auditors, auditors of the certifiers and farmers to be.
    Mr. Peterson. Well, thank you. I am glad, I hope that that 
is the case. And I would just say that my area, right now, 
other than the large-scale farms, the only folks that are 
actually making any money in dairy are the organic people.
    And one of the reasons is it is a somewhat limited market, 
because it does cost a lot of money to get into it. We have to 
be careful that we don't want to make this so easy that it 
oversupplies and collapses that market like we have 
oversupplied the overall milk market.
    I have some sympathy for people trying to get into this, 
but you would be better off to try to figure out how to give 
them resources to comply with the regulations than it would be 
to try to lower the regulations, in my opinion.
    But anyway, thank you, Madam Chair. I yield back.
    The Chair. Thank you very much.
    We now call on Mr. Davis of Illinois, my very, very good 
friend, Rodney.
    Mr. Davis. Thank you, Madam Chair. And I have not had the 
opportunity in this hearing room to congratulate you on 
ascending to the chair. It is a tremendous step up from the 
last guy who chaired this Subcommittee.
    The Chair. Good things do happen in Congress.
    Mr. Davis. Absolutely. Well, congratulations to you, Madam 
Chair, and to the Ranking Member, Mr. Dunn. This is a great 
Subcommittee to be a part of. And as somebody coming from the 
flatland of America, central Illinois, when I got here, I 
didn't expect to focus a lot of our efforts and my efforts on 
organic issues.
    While my district is certainly not the salad bowl of 
America like my colleague, Mr. Panetta's, where organics seem 
to outnumber the small number of organic acreage I have in my 
district, the demand for organic products ironically is going 
to be driven by areas of this country that don't grow any food.
    And more and more producers are going to look at organic 
demand and want to make that transition. My goal on this 
Committee, over the last 6\1/2\ years, has been to make sure 
that the organic certification label meets certain standards, 
because there is one thing that my organic producers, even 
though there aren't too many of them in central Illinois, they 
want to know that when they certify as organic, they are going 
to be able to ensure that the competition they have is going 
through that same strenuous, rigorous process.
    Now, in the past 10 years, the organic industry and private 
stakeholders have advanced 20 consensus recommendations for 
improvements to the organic standards via the National Organic 
Standards Board. And these recommendations actually demonstrate 
some broad agreement across a diverse coalition that doesn't 
necessarily, as both of you know, they don't always agree with 
each other.
    The USDA has not completed rulemaking on a single consensus 
recommendation. Recommendations that include proposals to 
strengthen organic seed usage, ensure consistency in 
transitioning dairy livestock, and set clear standards for 
greenhouse production.
    Under Secretary Ibach, how will the USDA make proper 
changes to ensure that the industry-backed standards are going 
to be implemented and, as we have heard from my colleagues, 
enforced?
    Mr. Ibach. That is a great question. I appreciate that 
question. As I previously mentioned, we are moving forward with 
the origin of livestock rulemaking process. We hope to be able 
to have a rule submitted for interagency input by the end of 
this year.
    Mr. Davis. All right. What about the other 19?
    Mr. Ibach. The other 19, so I agree that the--not only is 
it important for people that are producing through certified 
organic production means to know that there is a level playing 
field, but it is equally important for consumers to trust that 
when they go to the grocery store, they are buying a product 
that meets our standards as well.
    And the National Organic Standards Board plays an important 
role in advising and making recommendations to USDA. We think 
it is an important role. We are looking forward to making some 
new appointments as terms expire this coming year, and we have 
over 60 applicants. And so, we are looking forward to be able 
to create a more diverse and organic standards board to be able 
to provide us input across the board.
    Once they make the recommendation, we do take that 
recommendation seriously. We look at ways to address those 
concerns through avenues other than regulation, as well as 
consider whether or not that regulation is appropriate.
    Mr. Davis. Under Secretary, I appreciate that. I appreciate 
more diversity within the organic standards board. I appreciate 
the USDA moving forward, but are there any specific dates or 
timelines that you might be able to share with us today about 
the implementation of any of the other issues?
    I mean, you mentioned the dairy and livestock provisions, 
but like I said, we have 19 more that are consensus numbers. 
When are we going to move forward on the rest of them to ensure 
that we have the certification process?
    Dr. Tucker, have you got any other information?
    Dr. Tucker. Sorry.
    Mr. Davis. Our timers aren't working up here, which means I 
don't have to shut up either.
    The Chair. Oh, no. I will shut you up.
    Dr. Tucker. One of the big steps the National Organic 
Program has done is move very quickly on national list rules, 
which are very important Board recommendations. The recent 
launch of the Organic Integrity Learning Center, which now has 
more than 1,000 users, that is a direct result of several 
recommendations from the Board that has been implemented and is 
already in wide use. The strengthening organic enforcement rule 
that was mentioned earlier will also implement several NOSB 
recommendations.
    Mr. Davis. As my time has expired, just know that there is 
broad bipartisan consensus in making sure that we protect the 
organic certification process and the label for our farmers who 
have taken the risk to provide the food that is going to be in 
much more demand over the next decade.
    Thank you, and I yield nothing back because I have no time.
    The Chair. Thank you.
    At this time, I would call on my colleague, Mr. Cox.
    Mr. Cox. Thank you so much, Madam Chair.
    Secretary Ibach and Dr. Tucker, I represent California's 
21st Congressional District, which is ostensibly the top 
agricultural district in the top agricultural state. And some 
of the things we grow there are blueberries, and particularly, 
organic blueberries.
    And I understand the National Organic Program, the NOP, 
released a clarification memo regarding the legal requirements 
related to the 3 year transition period to be applied to 
container systems.
    And there has been significant concern by organic growers 
in my district regarding the ambiguity of that memo, and so, it 
is imperative that the organic container growing industry be 
provided the proper guidance in order to maintain its long, 
sought-after organic certification.
    And so, the NOP has consistently allowed for the 
certification of these organic systems as long as the certifier 
determines the system complies with the Organic Foods 
Production Act, the OFPA, and the USDA organic regulations.
    The question is, does the NOP plan on releasing any 
additional material to help growers understand what is and what 
is not allowed? And second, how can growers be best informed 
about requirements for the site-specific conditions when 
creating their organic plans?
    Mr. Ibach. As you know, when Congress passed the statutes 
that provided for the creation of the National Organic Program 
and the organic seal, the standards that we are implementing 
provide for a method of production, and how different 
herbicides, pesticides, and fertilizers are--which ones are 
eligible for use in those production.
    It does provide the opportunity for container growing, for 
aquaponics growing, for hydroponics growing, for even soil-less 
growing, if they follow those standards as the rules have 
evolved at this point in time. And so, we are happy to look at 
all the different types of production that--and to try to help 
producers understand how to comply with the national organic 
standards.
    People that have concerns about whether, and need, for 
clarification as to whether their production system meets those 
standards, we are happy to work with individually, if possible, 
or through their industry to help them understand where any 
compliance concerns might fall.
    Mr. Cox. Okay. That sounds good. We will follow up with you 
with respect to that.
    And the second thing, on a different subject is that I have 
heard from a number of the California poultry growers about the 
challenges of being made whole after a disease outbreak. And in 
your role, you certainly oversee APHIS, which handles outbreaks 
of animal disease.
    And these indemnity payments, which are key incentives to 
encourage the reporting of possible animal diseases, outbreaks, 
but the payment rates are derived from conventional livestock 
values. And are there any efforts underway to compensate 
organic producers in a, I would say, more equitable way?
    Mr. Ibach. First of all, in the exotic Newcastle outbreak, 
we are on our fifth week now with no new detections. We are 
hoping that we have been effective in being able to stop that 
disease and to be able to work our way out of having to worry 
about indemnification as we move forward.
    But, no, at this time we have not looked at ways to change 
those indemnification rules to include organic--a different 
valuation for animals that are produced organically. And we 
have the same problems when we come up against purebred 
livestock operations. We are hampered to be able to indemnify 
them at the levels that many of them feel that the value of 
their livestock is as well.
    Mr. Cox. How much time do we have?
    The Chair. You have 1 minute.
    Mr. Cox. Yes. Naturally the cost of production is so much 
higher than a conventional system, and so, once again, the 
focus would be on a more equitable indemnity payment, and so 
whatever we can do to follow up to work on that would be most 
appreciated.
    Mr. Ibach. Okay. I appreciate that. Thank you.
    Mr. Cox. Thank you. I yield back.
    The Chair. Thank you.
    Mr. LaMalfa, another California Member.
    Mr. LaMalfa. Lots of us, huh? All right. Thank you, Madam 
Chair. I appreciate it. And working with my colleagues in 
California as well.
    Anyway, welcome, Under Secretary Ibach and Dr. Tucker, 
today to the panel.
    The issue of organics obviously is huge in our home state, 
Mr. Panetta has a salad bowl, as was deemed by Mr. Davis, who 
should know. I have the rice bowl up in my part of the state. I 
am a rice grower in my real life, and we have actually taken a 
shot at growing organic rice. And I will tell you it is, as you 
know, our Chairman mentioned, it is tough to get and achieve 
the organic certification. I certainly appreciate how that 
process is to go about.
    And we need to protect that, not protectionism, but, at 
least, protect the integrity of that. One of the things I am 
curious about as with implementation of the 2018 Farm Bill, 
additional funding for research was put in place, but I also 
want to ask you to touch on the import oversight, you kind of 
mentioned in your comments, too, and how important that is with 
maintaining what is coming into the country, and how that 
protects the people that are actually reaching that level. We 
have had a lot of difficulty with that.
    But please touch first on the implementing of the 
additional funding in the 2018 Farm Bill for organic research 
and strengthening that market in this country. How has that 
gone so far with what you have been able to do with that 
funding?
    Mr. Ibach. We are working hard through, not only rulemaking 
that we had in process prior to the passage of the farm bill to 
be able to incorporate some expectations that were in the farm 
bill into those rules, to be able to have some of those moving 
forward yet this fall.
    But we also have been able to invest the resources that 
were provided in the farm bill to greater cooperation between 
USDA and Homeland Security, through Customs and Border 
Protection, to be able to invest money in an electronic system 
to be able to track imports better. We also have brought to the 
table APHIS, which can complement that and provide additional 
insight as they oversee imports coming into the country.
    And then we also have----
    Mr. LaMalfa. Let me back up, please, on the research a 
little bit more. Are the effects of these new dollars being 
felt in any 2019 research, the crops that they are growing 
there, or is it a little more 2020?
    Mr. Ibach. Because of the timeframe with which the farm 
bill was passed, we probably don't have research projects in 
place this year in 2019 growing season. But we do have is, we 
have been able to enhance research into market prices and price 
reporting. And we have expanded the number of organic crops 
that we are tracking, so producers can have an idea of what the 
value of their crops are. We are currently conducting market 
research on about 220 different organic products.
    Mr. LaMalfa. Okay. Thank you. And you were--I am sorry, you 
were in the middle also on the imports, the electronic import 
certificates having been implemented and the tracking system 
for those. How well is that working? What is the feedback you 
are getting from domestic producers on how that is--the 
fairness on that? How is that looking?
    Mr. Ibach. Actually, I think that this will take a very 
much paper-driven system and turn it into more of an electronic 
system. And for a lot of producers, the responsibilities of 
moving paper around is a challenge. It is also a challenge 
sometimes to interact with an electronic system as well, but it 
will actually bring more coordination between the organic 
program, auditors, the certifiers for domestic enforcement as 
well as for international enforcement.
    Mr. LaMalfa. How reliable is that system so far as where 
timing is always important, you are pushing paper, and the 
electronic method should be much more helpful in marketing, 
which when you are talking perishables in a lot of cases is 
extremely important?
    Mr. Ibach. I will invite Dr. Tucker to answer that 
question.
    Dr. Tucker. We have provided funding to Customs and Border 
Protection to construct the import certificate. That 
development work will be done this fall, and then into the 
spring, so we will be piloting a new system in the spring. But 
it takes time to program that organic import certificate into 
the system.
    Mr. LaMalfa. Okay. All right. Thank you. My time has 
expired. Thank you, Madam Chair.
    The Chair. Thank you.
    Now for Ms. Schrier of Washington.
    Ms. Schrier. Thank you, Madam Chair.
    First of all, I would like to echo some of the comments 
from my colleague, Mr. Davis, about the livestock rules. And I 
have an article to submit for the record from Ryan Mensonides, 
an organic dairy farmer from my district, discussing the 
importance of finalizing the USDA's origin of livestock rule.
    The Chair. So ordered. Without objection.
    [The article referred to is located on p. 35.]
    Ms. Schrier. Thank you.
    So the absence of this final rule, as expressed by Mr. 
Davis, has allowed other interpretations and an unfair playing 
field for organic dairy farmers, particularly smaller farmers. 
In the face of this disadvantage, Washington producers face 
economic hardship to the degree that failure to promptly move 
forward on rulemaking will mean the failure of these 
businesses.
    In fact, I have been told by more than one organic dairy 
farmer that their family farm may not be around in 2 years if 
this rule isn't finalized. I want to thank you, first of all, 
for expressing that this rule should be finalized then by the 
end of this year. Am I understanding that correctly?
    Mr. Ibach. It won't be finalized. We will be having a rule 
for public comment moving forward, as well as for interagency 
comment.
    Ms. Schrier. And how long are those comment periods?
    Mr. Ibach. Since this rule was, I might have Dr. Tucker be 
more specific on that, but since it was moving forward, the 
comment periods will be less than if we were just starting the 
rulemaking process.
    But Dr. Tucker, would you be more specific?
    Dr. Tucker. Yes. We are exploring the best way that this 
rule could be done correctly and as expeditiously as possible. 
There was a lot of support for the 2015 proposed rule that was 
published. Clearly, that is a strong starting point for the 
rule.
    Ms. Schrier. Thank you very much. I wanted to just 
reiterate that there is a lot of concern in Washington State 
about that.
    I have another question, or comment, that the Washington 
State Department of Agriculture administers the cost-share 
program for all organic operations in Washington State, 
including those certified by other agencies. And cost-share 
removes a barrier to entry for certification. We have already 
been hearing how important that is and how difficult it is to 
get that certification, particularly for small operations by 
lowering the cost of certification.
    While the farm bill authorized increased and continued 
funding for this program, the agency now responsible for its 
distribution, the FSA, the Farm Service Agency, has not issued 
formal authorization to allow our state and other agencies to 
move forward on the distribution of funds. And this delay puts 
our state on a very tight timeline to respond to over 1,000 
applications from businesses that have applied for the program 
before the end of the first cycle.
    Gains will be lost if we can't start disbursing these funds 
to the businesses that depend on them. Because these are 
critical to small- and medium-size organic growers in our 
state, I wondered if you could provide an update on the timing 
for this authorization.
    Mr. Ibach. I probably am not able to provide an update to 
you today on this. I will take your concerns about this back to 
Under Secretary Northey, as that is his mission area, and we 
will work to be able to get a response back to you to your 
question.
    Ms. Schrier. Thank you.
    I wanted to also reiterate our Chairman's comments about 
not relaxing organic standards, but doing whatever we can to 
support, especially small- and medium-size farmers to adopt 
healthy soil practices, organic practices, because the intent 
is there, but if they can't practically do it because of the 
cost, I consider that the job of the USDA.
    And I would say the same for just--I don't think that the 
free markets should be the only thing that drives organic 
farmers to pursue organic farming. I think that we all have a 
vested interest in this for the health of ourselves, our kids, 
our planet. And so, I would love to see more of a push than 
just a free hand there.
    And then last, I have no idea how much time I have left 
here, so I will just keep going until I am told to stop.
    The Chair. You have 1 minute left.
    Ms. Schrier. Great. The organic farmers in my district--
and, frankly, we have 300 crops in the State of Washington, 
lots of specialty crops, and they are hurting because of the 
lack of research right now, and this includes organic and non-
organic farmers. We are faced with a changing climate.
    And I am hearing on a regular basis about how frustrating 
it is to be smart and science-oriented, and yet, not have the 
support of USDA ARS researchers there to collaborate with 
researchers at Washington State University.
    And so, I just wanted to light a fire here to say we really 
need people in Washington State, and there is no way we are 
unique here, that we need to be doubling down on science and 
not gutting science in the USDA. Do you have a comment on that?
    Mr. Ibach. I appreciate those comments, and we do value 
science and research and being able to equip farmers with the 
ability to have the latest and greatest in technology as well 
as production practices. I will take your interest in research, 
and especially research that helps Washington farmers back and 
share that with Deputy Under Secretary Hutchins.
    Ms. Schrier. Thank you.
    The Chair. Thank you. Your time has expired.
    Mrs. Hartzler from Missouri. Thank you.
    Mrs. Hartzler. Thank you, Madam Chair, and thank you for 
being here today.
    I wanted to follow up on your testimony, Mr. Ibach, and 
about the farm bill. And in there, you mentioned that the 
organic agriculture product imports interagency working group--
that is a mouthful.
    Mr. Ibach. Yes.
    Mrs. Hartzler. But anyway, they had a meeting on June 27, 
and that they will continue to meet monthly. I was wondering if 
you could elaborate on that a little bit, and what do you 
expect to be the most important outcomes of these monthly 
meetings, and why are they important?
    Mr. Ibach. This is going to be a great task force that will 
be able to identify lots of opportunities to work together, to 
move forward and bring efficiencies to our system. I would 
invite Dr. Tucker, again, to maybe expand on what she expects 
some of the main outcomes to be from that working group.
    Mrs. Hartzler. Thank you.
    Dr. Tucker. The working group has convened, and we are 
looking forward to meeting monthly. We are coordinating on a 
number of projects already underway, such as the import 
certificate project. We have also been talking about how to 
integrate both NOP, but also the broader AMS staff into the 
commercial targeting center. This is a risk-based program that 
CBP oversees that we think that could be an important area of 
synergy.
    Organic represents an interesting case study for a lot of 
trade-related questions, and so we hope to help the Office of 
Trade in exploring their projects as they modernize the Office 
of Trade procedures, and we talked about ways of doing that. I 
am looking forward to pursuing joint risk-based approaches that 
will benefit both agencies.
    Mrs. Hartzler. Very good. Well, I think that will be very 
important to collaborate, and I am glad that you are underway 
and working on that.
    The last question deals with the issue that we highlighted, 
that the Chairman talked about, as well as the decrease in the 
amount of imports for organics because of better enforcement, 
which I applaud. It is very important for the integrity of our 
system as things, American farms that are buying ag imports, 
that they think are organic, that they really are.
    But that shortfall, and you mentioned a 60 percent decrease 
from the Black Sea area, does cause some concerns. Some 
producers are struggling to meet their demands for perhaps 
raising organic livestock, organic dairy products, or whatever, 
if they do not have the organic grain that they had purchased 
in the past from other countries. What is being done to try to 
address the shortfall that perhaps some of our livestock 
procedures are facing?
    Mr. Ibach. There are several things that we have seen 
happening in the marketplace because of the decrease in imports 
from the Black Sea area. One of those things is we have seen 
other production areas around the world that have sought to 
fill that opportunity that has been created. And so that, of 
course, though, creates challenges for us to make sure that 
organic standards are being upheld in other countries around 
the world. And South America is one of those areas that have 
seen the opportunity and looked to take advantage of that 
opportunity.
    But, we also have seen, especially in the Midwest, more 
interest in farmers of scale that are entering organic corn and 
soybean production industry that also have the ability to 
produce and provide a lot of feedstuffs into the organic 
livestock industry. And that is encouraging, too; because, one 
of the things that organic buyers not only like besides the 
fact that it is organic, they like it when it is grown in their 
neighborhood or locally.
    Mrs. Hartzler. Sure.
    Mr. Ibach. They like it when the feedstuffs are produced 
locally as well, so it makes for a better product.
    Mrs. Hartzler. I have a minute left. Can you just remind 
all of us, again, and kind of review what it takes to be--say 
if you are going to switch and start growing organic corn, or 
soybeans? Isn't it a 3 year process with the land or rice?
    Mr. Ibach. There is a 3 year transition process where you 
have to produce just like you were producing during--and once 
you are certified. And so those 3 years, you have the impact of 
organic production, which might include decreased yields, but 
you don't have the ability to take advantage of the increased 
prices. And so, it is a transition that is a challenge for 
producers, and maybe is one of the reasons why we don't see 
more producers entering the organic marketplace.
    Mrs. Hartzler. Thank you very much. I yield back.
    The Chair. Thank you for those questions, and definitely 
for the last one to really explain and talk about what some of 
the impediments and rice. You wanted to thank her for throwing 
rice in there as well? Okay.
    And now, someone who has been a real champion of the 
organic space for quite a number of years, Ms. Pingree of 
Maine.
    Ms. Pingree. Thank you very much. Thank you to the Chair 
and Ranking Member for holding this hearing, and to so many of 
the Members for turning out. It shows the increased interest 
in, and our Members understanding that there are real 
opportunities in their districts for organic farmers.
    I come from Maine, and I am a certified organic farmer 
myself, have been for many years, and we have seen organic 
sales in Maine really grow tremendously from 2012 to 2017. It 
is gone from $36 million to $60 million in our products. It has 
just been a huge opportunity for farmers. It is a challenging 
transition, but all of them find it well worth it.
    And as the Chairman said earlier, the only farmers making 
money in his district right now are the organic farmers because 
the price point is so driven. Everything that the USDA can do 
to support that transition has been, and is, critically 
important. It has been something I have suggested to the 
Department year after year after year for the 10 years I have 
been here, and now it is even more striking.
    And having this crackdown on organic imports is very 
helpful to American farmers, because it really does make sure 
that there is more fairness in the marketplace. And I can't 
emphasize enough, and I know everyone has been talking about 
that too, that that is really critically important, so thank 
you for moving forward on that and recognizing the importance 
of that area.
    But I can't emphasize enough that organic research, cost-
share, all the support things, technical assistance, it is part 
of what has made a big difference in Maine. We are a real focus 
of organic agriculture, and part of that is because we have the 
oldest organic farming organization in the country. And they 
have been a real vehicle for apprenticeship programs, 
journeyperson programs, support systems, technical assistance 
for farmers. And it has made a lot of difference because it is 
expensive, but you also need assistance along the way.
    I need to speak to the organic livestock rules. Several 
other colleagues have brought it up, and I am just going to be 
clear. It is completely unacceptable that you are going to 
suggest that we are going to have a proposed rule this year. We 
had a proposed rule in 2015, and Dr. Tucker said there was a 
lot of support for it. I discussed this with Secretary Perdue 
at an appropriations hearing earlier this year, and he said to 
me, ``Well, there are some opinions on either side.''
    No, there are not a lot of opinions on either side. This is 
a real consensus item. And as you have heard some of my 
colleagues talk about, organic dairy farmers are really 
challenged by not having this rule, and by people basically 
breaking what should be a rule.
    I would just like to suggest there should be a final rule 
this year. There shouldn't be a proposed rule, and I do not 
understand why you are suggesting that there would be. I don't 
know that we can resolve that today, but I would ask the Chair 
and the Ranking Member of this Committee to lend their support 
as a Committee to getting a final rule out as soon as possible. 
It is just, I don't know what to say. It is unacceptable. It 
needs to happen, and you have put a lot of farmers at a severe 
disadvantage. There isn't a lot of difference of agreement.
    Just to be completely clear to people, this is the 
difference between raising a calf with non-organic standards, 
and then being allowed to put them into your herd where under 
the rule, and what organic farmers do, is they raise them 
organically until they are milking, and they bear those costs. 
They see that as cheating the dairy system and a real financial 
advantage to the people who don't play by what should be the 
rules.
    It is not that complicated, and there is a lot of consensus 
about it. In the comments that have come in, they were 
virtually all in favor of the proposed rule of 2015. This is 
2019. I just don't see any gray area here. I just can't say 
enough about that.
    I want to follow up also on what Mr. Davis talked about, 
and that is the sort of the consensus rules that come before 
you. He mentioned that there are 20 of them. And just to be 
clear again, the organic label is a voluntary standard. When 
you have farmers coming to you and saying we want rulemaking on 
this system to make sure that there is integrity in the system 
and we can make money, why does it take so long for you to come 
to an agreement? Can you give me a little bit of the detail?
    I only have a minute left, but what happens in the 
Department's process? The NOSB comes to you with a 
recommendation. Does the Department act to issue guidance or 
rulemaking within a specific time period? Do you have any 
standards? And how long is your standard for something to 
become a final rule?
    Mr. Ibach. First, maybe to address the final rule issue at 
the dairy program. We are looking to be able to move that 
forward as quickly as possible. There is some issue because it 
was from 2015 whether or not we do have to take a few comments 
to be able to move that forward and get through the process and 
meet the expectations legally that we have to do. But we are 
looking to move that forward as quickly and as legally as we 
can. We appreciate those comments, and I hope you appreciate 
the fact that I am sincere in that.
    As far as recommendations from the National Organic 
Standards Board, as I shared before, we take those 
recommendations seriously at USDA. We take a look at them to 
see whether or not there are ways that we can implement them 
into other rulemakings that are in process, other standards 
that we set, and there are a number of different ways other 
than just going through rulemaking to be able to implement 
those recommendations, and we do that on a number of levels.
    Ms. Pingree. I am out of time, but thank you very much for 
saying that you are going to shorten this process. And I am 
going to follow up with you, and I am anxious to know what you 
legally have to comply with, and how quickly you can get this 
final rule out the door. It is just critically important, and I 
hope the Committee will support the importance of that.
    Mr. Ibach. We will be happy to give you that information.
    The Chair. Under Secretary, when you were talking about the 
2015 rules and my colleague stating that the comments were 
almost uniformly in one way, do you know what the percentage of 
breakdowns of those who were for the proposed rule and the 
percentage of those in comments who opposed it, or had 
difficulty with it?
    Mr. Ibach. Since that dates back to 2015, I will be happy 
to let Dr. Tucker try to see if she has an answer for that.
    The Chair. Do you have an answer, or do you need to get 
that information to me?
    Dr. Tucker. The comments were supportive of the rule. Many 
of them had comments on minor provisions or consider that or 
consider this, but the vast majority were supportive of the 
rule.
    The Chair. Okay. When you say consider that or consider 
this, were those a large number of people who were saying can 
you consider that or consider this or----
    Dr. Tucker. I believe it was about a little over 1,000 
comments. We can get the specifics for you.
    The Chair. I would appreciate that. Thank you very much.
    And waiting very patiently, my good colleague, Mr. 
Thompson, of Pennsylvania. Thank you.
    Mr. Thompson. Thanks, Madam Chair, Ranking Member, for this 
hearing.
    Under Secretary Ibach, Dr. Tucker, good to see you. Thanks 
for your leadership and your service as always. My first 
question really has, I have talked with some folks in 
Pennsylvania. Pennsylvania is the second largest for organics 
when you adjust it for population, California being number one. 
Considering there is three to four times the population in 
California, we are actually number one per capita. It is what 
you eat that makes all the difference, Doug. This is an 
extremely important hearing for the Keystone State, and for the 
agriculture industry as a whole.
    I have heard from some of my folks from Bell and Evans and 
others who are involved in the poultry industry have a great 
organic line. But I have heard from poultry producers that 
provide those birds the difficulty of getting organic soybeans 
as feed. Can you give me some idea what the status is? Where 
are we at right now in terms on that issue?
    Mr. Ibach. I don't know that I can answer the specific 
questions about quantities and anticipated quantities of 
organic soybeans. I think part of this is a result of our 
enforcement activities in the Black Sea region that reduced our 
opportunities to import those, but I would be happy to do a 
little bit of research.
    Mr. Thompson. And they shared your concerns, actually. They 
very much identified things, not necessarily from the Black 
Sea, but maybe somebody that comes into this country and lives 
on the East Coast, goes around to the West Coast. West Coast, 
East Coast, and all of a sudden it is organic, so it shows up 
in a labeling prospect, and so, that seems to be a challenge.
    And regarding our number one industry, obviously, 
agriculture is our number one industry in Pennsylvania. Our 
number one commodity is dairy. And regarding the dairy 
compliance project, can you describe some of the correctable 
issues that were found and what actions were taken by producers 
in the Department? Do you expect these farm visits to continue 
beyond 2019?
    Mr. Ibach. Yes. Over the past year, we have conducted a 
number of unannounced visits to dairies across the country to 
assess both the certifier compliance and the operational 
compliance of these dairies. We focused closely on the pasture 
standard to make sure that they are adhering to those 
expectations within the organic standard.
    We were encouraged by the visits in those inspections that 
we made. While there is some opportunity for additional 
certifier training, most of the operations were, for the most 
part, in compliance with the expectations. I think that shows 
that producers do try to adhere to the rules. We are continuing 
to move forward with unannounced inspections this year. And so 
I think that is an important tool, not only to help ensure 
compliance, but dispel concerns about compliance across the 
nation.
    Mr. Thompson. Well, thank you for that. Industry 
collaborates with stakeholders to develop recommendations to 
the organic standards for deliberation at the National Organics 
Standards Board, obviously. Having clear standards in the 
transition of dairy livestock is certainly both important and a 
pretty high hurdle to reach. Can you walk us through the 
Department's process after the NOSB provides the National 
Organic Program with a recommendation?
    Mr. Ibach. Since this question keeps coming up, I will have 
Dr. Tucker address that in detail.
    Dr. Tucker. Good morning. We take the Board's 
recommendations very seriously, and it is important to say a 
large majority of recommendations provided by the Board have 
been acted on by the USDA. And as stated earlier, it is not 
always through rulemaking. There are many different ways to 
implement different recommendations.
    A recent example is on inspector training and 
qualifications that the Board has spent significant effort on 
and that has translated into the learning center, as well as 
other materials that we use to communicate with certifiers 
about staff qualifications and training.
    The Board's input is very valuable in advising the USDA, 
and we look for many different ways to implement those 
recommendations. Once we get a recommendation, we evaluate the 
best way to move forward with it, be it rulemaking or guidance 
or training or some other mechanism. For anything related to 
guidance or rulemaking, it also goes through public comment. 
The national list rulemaking is our most common way of 
implementing Board recommendations through rulemaking, and so 
there is public comment that happens. We strive to have 
national list rules published within 18 months of a board 
recommendation. That is much faster than previous rules.
    Mr. Thompson. Thank you, Madam Chair.
    The Chair. Thank you. Thank you for that.
    Mr. Lawson from Florida, your 5 minutes.
    Mr. Lawson. Thank you, Madam Chair, and Ranking Member 
Dunn, and I would like to welcome Mr. Ibach and Dr. Tucker to 
this Committee. It is a very important Committee.
    Under Secretary, enforcement, you talk about enforcement 
and inspection are critical for maintaining the livelihood of 
organic farmers, such as organic dairy farmers in my district. 
Can you provide an update on the April 2015 proposed rule to 
clarify dairy animals can only be transitioned into dairy 
production once?
    Mr. Ibach. That is the rule that Congressman Pingree was 
also questioning about, and that is the rule that we are 
looking for the opportunity to be able to move that rule 
forward as quickly as possible through this late summer and 
fall.
    Mr. Lawson. Okay. Now, since there is over $50 billion, as 
you said, Madam Chair, in domestic organic sales in 2018, I am 
impressed by the growth of the national organic market. This 
question is for both of you, Under Secretary, and Deputy 
Administrator Tucker: what opportunities or program exists to 
assist minority farmers, ranchers, and agribusiness to 
establish a footing in the growing organic market?
    Mr. Ibach. Not only do our programs to assist transition 
apply to and are available to all producers, but we do have an 
office in USDA that works to target minority farmers and 
provide them special assistance. And so, if you have farmers 
that you are interested in having access to that, we would be 
happy to help you connect them.
    Mr. Lawson. Okay. And Dr. Tucker?
    Dr. Tucker. Yes. I would highlight the materials that we 
have. We have farmers talking to farmers about organic 
certification. Those are resources that are used by our 
partners as well as USDA directly. Farmers who are interested 
in transitioning to organic will learn the most by talking to 
other farmers. We focused on providing tools that enable that 
conversation.
    Mr. Lawson. Okay. Thank you. My district is no stranger to 
adverse farming conditions, and I think that Mr. Dunn over 
there can attest to it for the need of crop insurance. How is 
the National Organic Program ensuring that information about 
organic standards and organic practices get into the hands of 
risk management agencies, crop insurance agencies, and 
adjusters and farmers?
    Mr. Ibach. I will let Dr. Tucker answer that a little bit 
more in detail, but I will just say that one of the focuses 
that Secretary Perdue has had since becoming Secretary and the 
instruction to us as Under Secretaries is to increase our 
coordination wherever possible, to work with each other, to 
communicate across our mission area lines, to be able to have 
an approach, a one USDA approach.
    As a farmer myself, I always expected when I asked the USDA 
office a question in my county, the FSA office, I always 
expected to be able to get an answer from the person I was 
asking, rather than be told I have to go three doors down or 
call this number somewhere else. And so, we are really working 
hard to be able to coordinate and be able to provide answers 
across our mission areas and to have information flow across 
our mission areas.
    Mr. Lawson. Dr. Tucker?
    Dr. Tucker. I would say that data is absolutely critical 
for that form of cross collaboration and decision-making. One 
of the actions we have been focusing on is more and better data 
into the organic integrity database, which provides a much 
better picture of what is happening among organic producers 
that can inform decision making across different agencies.
    Mr. Lawson. Okay. With that, I yield back, Madam Chair.
    The Chair. Thank you very much.
    And Mr. Baird of Indiana, thank you for being here, and you 
have 5 minutes to ask questions.
    Mr. Baird. Thank you, Madam Chair, and Ranking Member Dunn. 
In Indiana, in my Fourth Congressional District, we have over 
100 certified organic operations, and these run the gamut from 
smaller operations like Coonrod Family Farms to Frito-Lay. Mr. 
Ibach, the question I have, does the NOP work with the 
stakeholders to develop standards for organic farming?
    Mr. Ibach. Actually, the National Organic Standards Board, 
as well as the statutes that Congress has passed are both 
informative to USDA's National Organic Program as they 
establish standards and modify those standards and evaluate new 
tools and new production methods as to how they would fit into 
an organic production and certification program.
    There are many ways that we work together, and definitely 
producer input is always a valuable part of that as well.
    Mr. Baird. Thank you. One more question for you. The 
organic field crop acreage in Indiana has increased by 30 
percent between 2016 and 2018. And to help keep pace, Purdue 
extension has begun hosting an organic ag series to help 
farmers with planting and marketing organic crops. Mr. Ibach, 
as a public-private partnership, does the NOP work with 
extension programs such as Purdue University, and if so, to 
what extent does this collaboration take place?
    Mr. Ibach. Definitely, the USDA has arms, especially within 
research, education, and extension to be able to extend 
knowledge through extension to farmers and ranchers about USDA 
programs. In the farm bill, there was mandatory money included 
in that for the Organic Agriculture Research and Extension 
Initiative that we are implementing at this time that will 
provide even more opportunities for Deputy Under Secretary 
Hutchins and his mission area to be able to work through 
extension with farmers.
    Mr. Baird. Thank you.
    Dr. Tucker, do you have anything you would like to add to 
either one of those questions?
    Dr. Tucker. We are closely connected with NRCS. They have 
wonderful outreach programs to farmers. We stay tightly 
connected with what they are communicating about organic, and 
we communicate on a staff level frequently.
    Mr. Baird. Thank you. I yield back my time.
    The Chair. Thank you.
    Bringing up the rear now will be Mr. Panetta who will, of 
course, tell us that his district in California is the number 
one organic grower, but we always remind him that it is number 
two per capita, so we try and bring him back down to size.
    Five minutes. It is all yours, sir.
    Mr. Panetta. Thank you, Madam Chair. It is nice that your 
reputation precedes you up here on the dais. But thank you very 
much, Madam Chair, for this opportunity, and obviously, thank 
you to Under Secretary Ibach and Dr. Tucker for being here, as 
well as your preparation for being here today.
    It is nice that people know exactly where I come from----
    The Chair. Here we go. Here we go.
    Mr. Panetta.--in regards to being the Salad Bowl of the 
world, which is the fifth in the nation for organic production 
with 471 certified organic operations. We do have a lot of 
organics. We have a lot of conventional. We have a lot of 
salad. We have a lot of berries. You name it----
    The Chair. You guys just have a lot.
    Mr. Panetta.--we grow it. Exactly. Exactly. But obviously, 
these types of hearings are very important, not just to me, but 
obviously to my constituency, conventional and organic. And so 
today, obviously we have talked about a number of things 
focusing on organic, and we are fortunate enough, and I was 
fortunate enough to be part of this Committee last term in 
which we, actually on a bipartisan basis, there were a couple 
of bumps in the road, but eventually got a farm bill that was 
fairly bipartisan.
    And one of the important aspects of that farm bill was $5 
million in mandatory funding for the Organic Production and 
Market Data Initiatives. Obviously, it facilitates the 
collection and distribution of organic market information, 
including data on production handling, distribution, retail, 
consumer, and consumer purchasing patterns.
    My question to you, Under Secretary, is how do you plan to 
ensure that the funds that are utilized can best assist organic 
producers that need that type of robust data on farm gate price 
reports and other key data to help them with the planning?
    Mr. Ibach. You are correct, and thank you very much for the 
investment in the organic program in USDA of the $5 million. Of 
that, AMS received $3.5 million. The rest of that went to ERS 
and NASS to be able to enhance their activities as well. This 
is going to allow AMS Market News to expand our organic market 
price reporting services. We are also boosting outreach to 
reporters and industry contacts to increase the products and 
the markets covered, as well as a number of other key contacts 
in the organic sector.
    This has allowed us to do market research and price 
reporting on nearly 220 organic products now. And you know, 
whether you are an organic farmer or a cow-calf producer in 
central Nebraska, USDA AMS Market News plays an important role 
in helping you understand what the value of your production is 
worth and help you be able to make sure you are seeking a fair 
price for the products you produce on your farm.
    It is one of the programs that is within my mission area 
that I am probably the most proud of, the tool that gives to 
every kind of a farmer across our nation.
    Mr. Panetta. Outstanding. Thank you. Thank you.
    Now, there are some gaps, and we know that, especially when 
it comes to organic acreage and transnational acreage in the 
both the organic integrity database as well as the National 
Agricultural Statistics Service organic survey data. You know 
the impact that these gaps can have on the organic community 
and the NOP's ability to detect and deter fraud domestically 
and internationally. How can the NOP ensure that accurate 
acreage data is collected and reported by organic certifiers?
    Mr. Ibach. I think that we definitely have enough 
certifiers to be able to help us in that, and working together 
with them and building strong relationships to help them, 
encourage them to provide us accurate information is important. 
But there is also back channels, or cross channels, that we can 
use to verify that the data coming in looks like it is correct 
and accurate, and if we see discrepancies between production 
and what the statistics show us, we can follow up on that.
    The Black Sea region was a great example of that where we 
looked at the acreage that was being reported, is in production 
organically, we looked at the number of bushels that were being 
offered to the markets organically, and we saw that the organic 
production was going to have to meet or exceed conventional 
crop production yields in that area.
    We knew there was a problem to go back and check on, and 
that gave us an indication to go to our certifiers and to go to 
the farms that they were certifying to identify where the 
problems were.
    As I have said in the past, that has resulted in about 180 
producers giving up their certification and no longer being 
part of the U.S. organic standards program. It also has seen 
imports from that region decrease significantly.
    Mr. Panetta. Great. Thank you. Thank you.
    Thank you, Madam Chair.
    The Chair. Thank you. You just talked about that. I know 
that your website says that there are 80 certifying agents that 
are currently part of the USDA, 48 based in the U.S., 32 are 
based in foreign countries. My district, the Virgin Islands' 
producers want to enter the market, but we need to make sure 
that the small-scale producers have an opportunity to play in 
an equal playing field. Given the differences in size and 
geographic locations, how do we maintain the consistency 
between certifiers? How do you insure that that doesn't happen? 
How does USDA work to ensure that certifiers are interpreting 
organic standards uniformly by giving fair and consistent rules 
across the industry?
    Mr. Ibach. Education and enforcement are two tools that are 
key there. One is to be able to communicate with certifiers, 
make sure that there are materials out there for them to have 
access to, to make sure that they are doing the best they can 
to enforce--to do what we expect them to do as certifiers. It 
is also our job, through the audit process, to then follow up, 
and as we audit those certifiers, to make sure that they are 
following our rules and meeting our expectations and applying 
them in a consistent and fair manner as well. And so, those two 
go together to help us ensure success.
    The Chair. As in the case of the Black Sea, the producers 
were decertified, but was there fraud or activity going on with 
the certifiers?
    Mr. Ibach. We also decertified a certifier in that area.
    The Chair. Okay.
    Mr. Ibach. And there has been other places, not only in the 
Black Sea, but in other parts of the world, that we decertified 
certifiers when we found that they didn't meet our 
expectations, just like we take the same actions against 
domestic certifiers if we don't think that they have--are 
consistently and correctly applying our standards.
    The Chair. Thank you.
    And another Californian, Mr. Carbajal, for your 5 minutes.
    Mr. Carbajal. Thank you, Madam Chair. And usually, 
Representative Panetta and I have a little bit of banter as to 
who on the Central Coast is better, but today, I will tell you, 
we are united, united in our message from California.
    Under Secretary Ibach and Dr. Tucker, thank you both for 
your time before our Committee and your leadership to support 
the National Organic Program.
    My district, located on the Central Coast of California, is 
home to almost 300 organic operations, ranking it as one of the 
top five districts in California and one of the top 25 
districts within the United States. The organic industry has 
proven to be an economic driver in my district and in the 
United States.
    Organic oversight and enforcement measures that are used to 
protect against fraudulent organic imports are important to the 
Central Coast farmers and businesses who consistently meet the 
highest standards for organic products and for consumers who 
deserve to know that all products on grocery store shelves 
labeled USDA organic adhere consistently to those high 
standards.
    USDA research has been vital to the growth and the 
development of this multi-billion-dollar organic sector. How 
will the relocation of NIFA and ERS to Kansas City impact the 
ability of these agencies to provide NOP with information and 
input on organic priorities?
    Mr. Ibach. I think that USDA has a long history of having 
offices spread across the United States that communicate with 
each other. Within my mission area, I have hubs in Raleigh as 
well as in Fort Collins and major employee concentrations in 
towns and cities in a number of states, and we are able to work 
together and share information and run effective programs by 
being in diverse locations. I feel like we will be able to 
continue to do that as we have offices located in new places 
across the United States as well.
    I also appreciate the fact that your producers appreciate 
what we do to ensure compliance and equivalency around the 
world. And that has been another one of the areas that we have 
been focused on in the last couple of years is trying to not 
only seek organic equivalence in marketplaces like Great 
Britain and Europe for U.S. organic production, but also set an 
expectation on Mexico to seek equivalence with us so that those 
products that move across the border in southern California are 
meeting the same standards that the California producers are 
held to.
    Mr. Carbajal. Thank you very much. In terms of this 
geographic location issue, do you have some metrics that you 
are going to be able to evaluate to ensure that effectiveness 
is not compromised in any way? I mean, it is good to say that 
geography is not going to affect how we operate and how 
effective we are, but unless there is some metrics to assess 
that, I am not sure that that will be the case.
    Mr. Ibach. Well, I can assure you that the Secretary is a 
big fan of metrics and tracking our progress and how we 
evaluate our programs. I have no doubt in my mind that he will 
have a way to hold us as Under Secretaries accountable for the 
actions of our mission area.
    Mr. Carbajal. Thank you. And again, for the record, the 
Central Coast is alive and present today.
    Madam Chair, I yield back.
    The Chair. Thank you. I don't know if my Ranking Member has 
any closing remarks that he would like to make.
    Mr. Dunn. Just to say thank you very much to the Assistant 
Secretary, or Under Secretary, I am sorry, and Dr. Tucker for 
your time today. You have been very illuminating and 
cooperative. We appreciate you.
    The Chair. Thank you. First, some housekeeping. Let's see 
where it is here. Under the Rules of the Committee, the record 
of today's hearing will remain open for 10 calendar days to 
receive additional material and supplementary written responses 
from the witness to any of the questions posed by a Member.
    Just some closing thoughts that I had. As you can see, 
there is a strong bipartisan support for protecting the 
integrity of the organic seal. And I am so glad to hear about 
the progress that NOP has made on enforcement with new 
authorities, and I look forward to future updates, specifically 
on your rulemaking.
    As expressed by my colleagues here, we have great concern 
as to this being prolonged. We would love for the process to be 
sped up some so that there can be more certainty in what the 
rules are. Collaboration between Congress and USDA is critical 
to ensure consumer confidence and for farmers to be successful.
    And I am appreciative of your willingness to work in 
finding ways to allow new entrants and those who may have had 
difficulty in coming into the organic space, whether that be 
because of the size, the distance, or even farmers that we have 
not--Mr. Lawson talked about African American farmers which at 
one time, were such a large part of the farming community and 
have diminished tremendously over time. The impediments that 
keep people out of the organics are something that we would 
love to be able to work on.
    And, just because I am the Chair and I can do this, I want 
to invite you. The Virgin Islands is my district and will be 
having a farm tour in late August, where we will be going 
around to different farms in the Virgin Islands, both on St. 
Croix as well as St. Thomas, and we are inviting a large 
collaboration of people to see our farmers and then to have 
meals with them in the evening to really talk with them and 
assist them in breaking some of those impediments that they 
have had. And the Committee is also going to be coming to the 
Virgin Islands in February, which is probably the time that 
most people want to come for our agricultural fair.
    Thank you, again, to you, Under Secretary, and, of course, 
to Dr. Tucker, for the work that you are doing and your 
continued support of this area, and know that the Members of 
this Subcommittee really do want to work with you and provide 
as much support as possible.
    This hearing of the Subcommittee on Biotechnology, 
Horticulture, and Research is adjourned.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Letter by Hon. TJ Cox, a Representative in Congress from 
  California; on Behalf of Robert Hawk, President and Chief Executive 
                       Officer, Munger Companies
July 17, 2019

    On behalf of Munger Farms, I submit the following comment for the 
record.
Munger Farms
    Munger Farms is a family-owned farming operation based in Delano, 
California, with additional operations across California, Oregon and 
Washington. Munger is the largest independent North American producer 
of fresh blueberries and also produces pistachios, almonds, olives, 
hazelnuts and wine grapes. Munger employees about 300 permanent 
employees year-round and in excess of 4,000 temporary employees during 
harvest season.
Organic Container Growing
    The National Organic Program (NOP) has consistently allowed for the 
organic certification of container systems as long as the certifier 
determines that the container system is in compliance with the 
requirements of the Organic Foods Production Act (OFPA) of 1990, as 
amended (7 U.S.C.  6501-6522), and USDA organic regulations (7 CFR  
205.1-205.699).
    In recent years, in accordance with NOP's guidance, Munger has 
begun transitioning from conventional growing methods to organic 
container growing operations. This transition has allowed Munger to 
maintain its commitment to cultivate with care by minimizing its 
environmental impact and using sustainable agricultural practices in 
support of the local communities they operate within and the organic 
consumers they service.
    Container growing is consistent with the objectives of organic 
farms. Container growing requires less water use, uses organic 
fertilizers and reduces pesticide use due to the controlled environment 
production system. The reduction of water usage is significant in light 
of California's recurring droughts which stem from a complex 
combination factors including of weather conditions, inefficient 
distribution systems and farming conditions. Any amount of water that 
can be saved through container growing operations aids in alleviating 
the West Coast's ongoing water crisis.
National Organic Program
    NOP's participation in organic growing operations is vital for both 
maintaining the interests and intended goals of organic growing but 
also for modernizing what it means to grow organic. If not for NOP's 
diligent oversight and continued communications with the grower 
community, the progression of organic growing would be stalled.
    NOP has maintained the integrity of organic growers while also 
permitting a new means of responsible agriculture. Moreover, NOP has 
continued to issue guidance on operational requirements and standards 
as new growing issues and concerns arise. Most recently, NOP issued a 
guidance memorandum related to the certification of organic crop 
container systems and the legal requirements related to the 3 year 
transition period to be applied to all container systems built and 
maintained on previously farmed agricultural land. This guidance 
provided both clarity to looming unknowns related to this matter while 
maintaining the high standards of organic agriculture.
    Organic growing methods will continue to evolve over time and NOP's 
expertise and guidance is required to maintain a stable and respected 
organic standard.
            Sincerely,

Robert Hawk,
President and CEO.
                                 ______
                                 
  Submitted Article by Hon. Kim Schrier, a Representative in Congress 
                            from Washington
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Organic Dairy Rules Need Repair--Now
https://www.pccmarkets.com/sound-consumer/2019-07/organic-dairy-rules-
need-repair-now/
Sound Consumer July 2019 D By Aimee Simpson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Dairy farmers Ryan and Haylee Mensonides/photo by Molly 
        Goren, courtesy of PCC Farmland Trust.

    Normally, organic dairy farmers have other things to do with their 
time than discuss the rules that support the organic label--things like 
making sure their cows are brought in from the pasture and milked. This 
year, however, organic dairy farmers and many advocacy groups and 
affiliates made the trip to the National Organic Standards Board (NOSB) 
meeting in Seattle to testify about a problem that may take away their 
ability to focus on the farm, even stay on the farm. What is the 
problem? To put it simply: how an organic cow becomes and stays 
organic.

    You see, in 1990, when the national law was passed that created the 
National Organic Program (NOP) and a little later when the organic 
regulations were finalized, there weren't a lot of organically raised 
cows. To encourage the transition of conventional dairy cows to 
becoming organically raised, the regulations allowed farmers to take a 
non-organic cow and transition it to organic through a 1 year process. 
After this one-time transition, the regulations were pretty clear (or 
at least most of us thought they were clear) that to keep your organic 
certification and label your milk as organic, all cows going forward 
had to be raised according to organic standards from the last third of 
gestation.
    Enter the success of the organic program over the past 3 decades. 
For most organic farmers, especially dairy, there were financial 
benefits to making the transition to organic that supported the 
increased costs and effort of raising organic livestock and producing 
organic milk. But a few years back an issue arose--there was too much 
organic milk and it was being sold at a cost that did not add up. It 
came to light that not all organic dairy farmers were operating under 
the same set of rules. Instead of the one-time transition and then 
continued organic management, some certifiers were allowing farmers to 
continually transition non-organic cows into organic, a cheaper process 
that allowed them to avoid the costs of raising a calf as fully 
organic.
    The organic community came together and realized this issue 
threatened not only the farmers, but also the integrity of the organic 
label. The fix seemed simple--tell the U.S. Department of Agriculture 
(USDA) to enforce the one-time transition. But according to USDA, the 
fix was more complicated because the rules that spelled out how farmers 
could transition organic cows and what certifiers could enforce had, 
for lack of a better analogy, a gap in the fence. This meant that to 
fix the problem the gap had to be mended and a new rule needed to be 
put through ``rulemaking''--a long and tedious process that requires 
many levels of administrative review and public comment, often taking 2 
years or more.
    Despite this bureaucratic hurdle, USDA did get to work and in 2015 
issued a proposed rule that was shaped and agreed upon by the organic 
community through the rulemaking process. The rule wasn't perfect, but 
it did mend the hole in the fence--curbing potential fraudulent 
behavior and oversupply in the organic dairy market; and, more 
importantly, guaranteeing that consumers would get what they have been 
promised. It had at the time--and still has--almost unanimous support 
throughout the organic dairy community.
    For organic farmers there was hope that beyond better prices and 
support of the family farm, there was a model of the bureaucratic 
system and organic system working to support the needs and expectations 
of organic farmers and consumers alike.
    Unfortunately, nearly 4 years later for many organic dairy farmers 
this hope has been dashed and the gaping hole in the regulatory fence 
remains because the ``Origin of Livestock'' rule sits idle.
    ``This lack of movement and enforcement by the USDA has opened the 
door for a few to tarnish the reputation of the whole and put many 
organic farmers in the dire situation of potentially losing our 
farms,'' Ryan Mensonides, an organic dairy and PCC Farmland Trust 
farmer, commented.
    And this was precisely why several organic dairy farmers living in 
Washington took time away from their farms and made the trek to Seattle 
to let the NOSB, NOP and organic community know that they did not have 
time to wait. The Origin of Livestock Rule needs to be finalized. Now.
    ``It is paramount to understand that there is no stronger advocate 
for the integrity of the organic market than the organic farmers 
themselves. We believe in this way of life and want only the best for 
our consumer,'' emphasizes Mensonides. ``This is why we continually 
advocate for stronger rules and enforcement from the NOP.''
    Unfortunately, the experience of organic farmers making the trek to 
Seattle and other organic advocates seemed to fall on stubborn ears 
with the NOP offering no reassurance that the needed action of 
finalizing the existing proposed rule would be taking place. But the 
voice of the organic community is strong and there is still time. PCC 
and the National Organic Coalition have raised this issue in their work 
in D.C. and before the NOSB. We are also working to evaluate our dairy 
suppliers and develop internal assessments on organic dairy livestock 
sourcing and transitioning practices.
    Consumers can help too by reaching out to their elected officials 
and putting pressure on the USDA and the rest of the Administration to 
stop stalling, pick up their tools--today--and fix the fence.

          Aimee Simpson, J.D., is PCC's director of product 
        sustainability.
                                 ______
                                 
   Submitted Fact Sheet by Hon. Chellie Pingree, a Representative in 
                          Congress from Maine
                          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Repair the Public Private Partnership in Organic
Continuous Improvement in Standards
    A healthy market for organic products requires a clear market 
distinction backed by a level playing field and a trusted, verified, 
and enforced claim. This burgeoning industry requires critical support 
from the U.S. Department of Agriculture's (USDA) National Organic 
Program (NOP) for uniform and robust standards.
USDA Is Not Advancing Organic Standards
    The failure of government to keep pace with consumers and the 
industry is harming and fragmenting the market. Inconsistent standards 
are becoming the status quo. Accountability in advancing the voluntary 
organic standards is essential to a healthy market and opportunity for 
farmers in the future.

          In the past 10 years, industry has advanced 20 consensus 
        recommendations for improvements to the organic standards. USDA 
        has not completed rulemaking on a single one of them.
Accountability in Developing Voluntary Organic Standards
    A new framework must be set for advancing Federal organic standards 
to keep up with the marketplace and ensure the credibil[i]ty of the 
USDA Organic seal.
    Industry and private stakeholders own the voluntary standards and 
reach consensus on developments to those standards through deliberation 
at the National Organic Standards Board (NOSB). USDA should rely on 
NOSB consensus recommendations as the will of the industry developed in 
collaboration with environmental, scientific, and public stakeholders.
    The voluntary, opt-in organic program is unique, and standards 
should advance in a way that is different than mandatory regulations.

  3 NOSB consensus recommendations should be included on the Unified 
        Regulatory Agenda with a published timeline for action.

  3 Removal from the Unified Agenda must require public and 
        Congressional notification with the rationale as to why the 
        agency is not moving forward on widely supported standards 
        questions.

  3 The Office of Management and Budget (OMB) review must consider the 
        costs when standards are inconsistent or not robust enough to 
        meet the market demand.

  3 Economically insignificant rulemaking, based on a consensus NOSB 
        recommendation, should not be designated a ``novel policy'' 
        that requires OMB review since it is agreed to by industry--
        this would shorten the timeline to develop final standards 
        significantly.
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Continuous Improvement Is a Bedrock of Organic

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Ask: Support from Congress for continuous improvement and 
        accountability in organic standards.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Greg Ibach, Under Secretary, Marketing and 
        Regulatory Programs, U.S. Department of Agriculture
Question Submitted by Hon. Stacey E. Plaskett, a Delegate in Congress 
        from Virgin Islands
    Question. In the hearing, we spoke about the 2015 Origin of 
Livestock proposed rule from USDA. Concerning public comments, Dr. 
Tucker stated that ``the vast majority were supportive of the rule.'' 
Specifically, how many public comments were received for this proposed 
rule? How many comments were generally supportive of the proposed rule?
    Answer. AMS received 1,371 comments in response to the 2015 
proposed rule. Of these, more than 900 comments expressed general 
support for the proposed rule. Other commenters shared feedback about 
specific provisions in the rule, such as definitions, the regulatory 
unit, transition requirements, and the implementation period. 
Approximately 100 comments voiced some form of opposition to the rule. 
Of these, most did not express critiques of specific elements of the 
proposed rule, but rather, expressed general disapproval because they 
opposed the certification of large dairies, opposed any transition 
allowance, or did not feel like the rule would substantively improve 
consumer trust in the organic label overall.
    At the time of the 2015 proposed rule, AMS estimated the U.S. 
organic dairy industry was comprised of 1,850 organic farms milking 
about 200,000 cows. Updated USDA data indicates there are now more than 
2,500 organic dairy farms milking 267,500 cows, or a 38% and 34% 
increase, respectively. These data highlight the significant growth of 
the organic dairy industry since 2015. USDA has concerns about 
proceeding with a final rule without providing an additional 
opportunity for new entrants to provide public comment on a rule that 
would impact their businesses.
Question Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question. In recent years, seed treatments, used in very low 
concentrations, have become an important, and standard, agronomic tool 
for conventional farmers worldwide. Seed treatments typically include a 
mixture of pesticides, fertilizers, biostimulants, inoculants and a dye 
applied directly to seeds, either on-farm by a farmer or at a seed 
processing facility by a seed producer prior to bagging seed for sale. 
In most cases, these agricultural inputs are applied to seeds at rates 
that are more than 100X lower than if those same agricultural inputs 
were applied to crops while growing in the field. Today, the majority 
of all conventional row crop acres in the United States are planted 
with treated seeds.
    While the use of seed treatments has largely been confined to 
conventional growers, several new NOP-compliant inputs for use in 
organic farming have recently been approved by Federal and/or state 
regulators and by USDA NOP recognized third party certifiers. These new 
``bio-stacked, seed treatments'' include a mix of NOP compliant and NOP 
certified pesticides, fertilizers, biostimulants, seed inoculants and 
dyes.
    Seed treatment suppliers report significant interest in these bio-
stacked seed treatments by organic growers, by growers wishing to 
transition to organic acres and by the vast majority of NOP certifiers 
advising organic growers. However, organic input providers have 
indicated that a minority (less than 20%) of organic certifiers has 
raised concerns that the use of seed treatments prior to the actual 
failure of cultural practices to control pests could be interpreted as 
being inconsistent with organic practices (citing section 205.206 of 
the organic rule). Clarity around USDA's interpretation of the use of 
NOP-compliant seed treatments in organic farming would effectively 
address the concerns raised by a some farm certifiers who wish to use 
the product, but are unsure of how the organic compliance of these new 
tools would be viewed by USDA.
    In reviewing 205.206 of the rule, the Committee interprets current 
NOP regulations to allow the use of Federal (e.g., FIFRA) or state 
(e.g., fertilizers or biostimulants) and USDA NOP certified (e.g., 
OMRI, WASDA) seed treatments as part of their organic production 
practices. Particularly in instances where: (1) the grower is actively 
undertaking organic compliant cultural, soil and plant health and 
sanitation measures in their crop production and (2) documenting the 
conditions for use of the seed treatment (e.g., that the products were 
applied per approved label rates, that a history of pest pressure 
exists on the farm or in the region) in their organic system plan.
    Does the Secretary concur with this interpretation?
    Answer. Yes, the Secretary concurs with this interpretation. That 
said, NOP's responsibility is to approve these types of materials. Once 
that work is complete, certifiers respond accordingly with no need to 
object to organic producers using it. While NOP encourages 
recordkeeping, in this area, the lack of this type of recordkeeping 
should not preclude use of NOP approved seed treatments.
Question Submitted by Hon. Anthony Brindisi, a Representative in 
        Congress from New York
    Question. Under Secretary Ibach, I have heard from small organic 
dairy farmers in my district who are concerned that larger dairies 
claim to be organic and are selling organic milk, but don't follow all 
the NOP rules including the pasture rules. My farmers are concerned 
that this is undermining the public's trust in organic labeling.
    What is the USDA doing to enforce organic rules for dairy 
operations?
    How many dairies have lost their certification or had adverse 
action taken, and can you share the size of those dairies?
    What other actions are you taking?
    Answer. The NOP 2018 Dairy Compliance Project significantly 
increased the number of unannounced audits of organic dairies around 
the country. This enforcement project continued in 2019, with 
additional auditors and an increase in the number of unannounced 
audits. NOP utilizes a risk-based approach to allocating enforcement 
resources. The more complex the operation, the higher the likelihood it 
will be subject to increased surveillance. Federal auditors have found 
that most dairies currently meet organic requirements. The 2019 Dairy 
Compliance Project is still in progress.
    When supported by evidence, NOP has issued adverse actions to both 
certifiers and dairies. When non-compliances are found to be 
unintentional or minor, the goal is to bring the certifier or operation 
back into full compliance as quickly as possible. More serious matters, 
intentional violations or fraud may be escalated to other law 
enforcement agencies and may result in significant financial penalties 
and/or imprisonment. Generally, until all appeals are exhausted, or an 
entity voluntarily surrenders its certification, NOP is not legally 
able to comment on whether or not an investigation is underway.
    To date, three certifiers have received notices of non-compliance 
and one dairy has received an adverse action. These numbers may 
increase as fall-season audits and certifier investigation requests are 
completed this Fall. The NOP will continue to take direct action 
whenever supported by the evidence. Many certifiers also issue notices 
of noncompliance or take adverse actions against dairies based on their 
independent findings. In the public-private partner model, not all 
notices issued by certifiers and resolved by operations are reported to 
NOP unless there is need for further adverse action.
Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. How has the Priebus memo and President Trump's 
Executive Order--which froze regulatory actions and required that for 
every new regulation, two must be withdrawn--affected the ability of 
organic standards to move forward? Are voluntary regulations such as 
the National Organic Program constrained by this Executive Order, or 
are they being treated distinctly from mandatory regulations?
    Answer. Executive Order 13771, signed on January 30, 2017, directs 
agencies to repeal two existing regulations for every new regulation, 
and to do so in such a way that the total cost of regulations does not 
increase, unless doing so is prohibited by law. EO 13771 does not make 
a distinction between voluntary and mandatory regulations, but only 
between regulatory and deregulatory regulations. Nevertheless, EO 13771 
has not affected the ability of organic standards to move forward.
    USDA's Spring 2019 Regulatory agenda included a total of 44 
deregulatory items and only 16 regulatory items under the EO 13771 
designation. The savings associated with these 44 deregulatory items 
more than offset the costs associated with the 16 regulatory items, 
including the National Organic Program rules. Because compliance with 
EO 13771 is assessed on an agency-wide basis, rather than on a rule-by-
rule basis, that alone is sufficient to promulgate the National Organic 
Program rules currently planned by USDA. Specifically, the National 
Organic Program had three regulations on the Spring 2019 agenda. The 
Strengthening Organic Enforcement proposed rule, which will include 
multiple provisions to strengthen organic certification and 
accreditation in response to a clear need for stronger compliance and 
enforcement practices in the marketplace, was designated regulatory, 
while two rules amending the National List of Allowed and Prohibited 
Substances were both designated deregulatory. Clarifying these rules 
will have a positive impact for farmers who choose the organic option.
    USDA's focus on organic compliance over the past 2 years has shown 
that enforcing the existing standards is having a significant impact. 
Fairness and consistency have been significantly improved by enforcing 
the strong rules we have. This is evident by the significant 
enforcement actions taken by the organic program over the past 2 years. 
We are committed to protecting the investment that organic farmers 
across the country have made in the organic market.

    Question 2. How is the National Organic Program (NOP) ensuring that 
certifiers are consistently and uniformly applying the organic 
standards? Particularly, how is NOP specifically evaluating uniform 
compliance to regulations, guidance, and instructions by certifiers?
    Answer. There are currently 78 certifying agents accredited under 
the National Organic Program (NOP). Both foreign and domestic 
certifiers are held to the same standard around the world. USDA has 
conducted onsite evaluations of all 78 accredited certifying agents; 
these are repeated at least every 2.5 years, at the midpoint and at the 
renewal point of the 5 year accreditation term. USDA also conducts 
additional onsite audits of satellite offices for certifiers who 
operate offices in countries other than where their headquarters office 
is located.
    Additionally, USDA monitors certifiers on an ongoing basis by 
reviewing their investigations of complaints about their certified 
operations, conducting special focused reviews of organic system plans 
and inspection reports for specific countries and commodities, 
reviewing certifier annual reports and training records, and 
communicating with them about operation-specific questions.

    Question 3. Has the Department pursued any investigatory action 
related to the allegations that certifiers, including the Texas State 
Department of Agriculture and Idaho State Department of Agriculture, 
have not enforced the origin of livestock standard?
    Answer. Origin of livestock for dairy animals has been a topic of 
interest within the organic community since the USDA organic 
regulations were implemented. To address inconsistent interpretations 
of this provision, the Department has reopened the comment period on 
the Origin of Livestock proposed rule to clarify these provisions 
related to the transition of animals into organic production. This 60 
day comment period recognizes that the dairy industry has changed 
significantly since the original comment period in 2015. All 1,580 
public comments from the original comment period will also be 
considered by the Department when completing the final rule, expected 
early in 2020.
    In addition to this rulemaking on Origin of Livestock, USDA has 
taken a number of actions to enhance the oversight of the organic 
livestock industry. In 2018, the National Organic Program launched a 
dairy oversight program, focused on assessing compliance with the 
established organic pasture standards. This has led to investigations 
and corrective actions by both certifiers and operations.

    Question 4. Please provide the specific legal requirements that the 
Department has cited as a rationale for not issuing a final rule or an 
interim final rule on Origin of Livestock.
    Answer. The USDA is currently considering adding the ``Origin of 
Livestock'' final rule to the Unified Agenda of Regulatory and 
Deregulatory Actions. At the time of the 2015 proposed rule, AMS 
estimated the U.S. organic dairy industry was comprised of 1,850 
organic farms milking 200,000 cows. Updated USDA data indicates there 
are now more than 2,500 organic dairy farms milking 267,500 cows, or a 
38% and 34% increase, respectively. These data highlight the 
significant growth of the organic dairy industry since 2015. USDA has 
concerns about proceeding with a final rule without providing an 
additional opportunity for these new entrants to provide public comment 
on a rule that would impact their businesses.

    Question 5. In the last decade, the National Organic Standards 
Board (NOSB) has come to a consensus 20 times to provide 
recommendations and the National Organic Program (NOP) has not issued a 
final rule for a single one of them. These were not recommendations 
related to the National List or recommendations for guidance or 
instructions; they were recommendations to clarify and advance the 
organic standards that would require a rulemaking. In your testimony 
during the hearing you cited that there are many ways the NOP can 
implement NOSB recommendations without issuing new regulations or 
guidance. Can you describe how that is legally enforceable from a 
compliance perspective?
    Answer. Since being established in 1992, the National Organic 
Standards Board (NOSB) has made more than 600 recommendations to USDA 
related to organic production/handling and materials. The NOSB provides 
two types of recommendations: National List and Practice Standards. 
USDA has reviewed and implemented approximately 90 percent of the 
Board's recommendations. The National Organic Program has implemented 
practice standards recommendations using many approaches.
    USDA published final rules and guidance on access to pasture and 
pesticide residue testing in organic production. Several of the 
referenced NOSB recommendations are included in the Strengthening 
Organic Standards proposed rule now in development. Upon review, it was 
determined that some recommendations do not require rulemaking and a 
few of the recommendations were so broad as to be impractical or beyond 
the capacity of the program to implement at this time.
    USDA has also published documents on topics of broad interest, such 
as classification of materials; calculating the percentages of 
ingredients in organic processing; the NOP peer review process; 
certificates for organic operations; post-harvest handling; and other 
certification/accreditation topics. These documents have significantly 
improved consistency across certifiers and have responded to many 
certifier questions without the need for rulemaking.
    USDA actions in response to NOSB recommendations have also resulted 
in an expansion of the public comment period before NOSB meetings to 
allow for more public feedback between meetings. Recommendations also 
directly led to the launch of the Organic Integrity Learning Center, 
which now has more than 1,200 users. These actions directly support 
compliance and fair and consistent certification across the industry.
Question Submitted by Hon. K. Michael Conaway, a Representative in 
        Congress from Texas
    Question. On August 11, 2017 the National Organic Program 
implemented additional control measures for organic imports originating 
in Kazakhstan, Moldova, Romania, Russia, Turkey, and Ukraine. These 
measures required that all affected shipments undergo individual 
document review and testing. Did these additional control measures 
identify any fraudulent imports?
    Answer. The 2017 National Organic Program (NOP) directive to 
certifiers had a direct impact on the market. After the directive, NOP 
worked with Customs and Border Protection (CBP) to share information on 
imported organic corn. This led to CBP turning away two vessels at the 
border in 1 year due to phytosanitary requirements. The NOP also 
required certifiers to test overseas farms for pesticide use. Several 
tests came back positive, and those farms dropped out of the organic 
supply chain. The lessons learned from the Directive helped the NOP 
identify certifiers that needed to improve their capabilities to 
oversee complex farms and led to more and faster farm-level 
investigations. Alongside the work of the NOP, industry participants 
have also taken specific actions to protect the integrity of their 
supply chains, further advancing global organic integrity.
Question Submitted by Hon. Glenn Thompson, a Representative in Congress 
        from Pennsylvania
    Question. I have heard from poultry producers about the difficulty 
of finding organic feedgrain, such as organic soybeans. Is this an 
issue that you are following and what is the status of your 
involvement?
    Answer. The integrity of organic feedgrains is one of the NOP's 
highest priorities. U.S. demand for organic feedstuffs outpaces 
American organic production, so the organic livestock sector depends on 
imports. Investigations of organic feed imports from the Black Sea have 
identified serious compliance concerns, and those supplies have dropped 
by 60 percent. USDA offers a number of support programs to help 
domestic producers transition to organic feed production, including 
conservation technical assistance, financing, and research at land 
grant universities.
Question Submitted by Hon. Mike Bost, a Representative in Congress from 
        Illinois
    Question. Under Secretary Ibach, you have mentioned the strides 
made in the 2018 Farm Bill for organic import enforcement.
    One of the points that I think is most critical is the increased 
oversight provided of foreign certifying agents.
    As your testimony states, just 2 months ago, USDA suspended a 
certifying organization in Turkey for failing to oversee organic 
operations in the Black Sea region.
    Can you explain how the National Organic Program works to ensure 
certifiers, both foreign and domestic, are held accountable so that 
consumers are confident that an organic product really is organic?
    Answer. There are currently 78 certifying agents accredited under 
the National Organic Program (NOP). Both foreign and domestic 
certifiers are held to the same standard around the world. USDA has 
conducted onsite evaluations of all 78 accredited certifying agents; 
these are repeated at least every 2.5 years, at the midpoint and at the 
renewal point of the 5 year accreditation term. USDA also conducts 
additional onsite audits of satellite offices for certifiers who 
operate offices in countries other than where their headquarters office 
is located.

                                  [all]
</pre></body></html>
